APPENDIX;fl

Opinion/Order der,ying motion for
Jomiah n
C8rMiIiioaoe °f aPPealability ,
Washington v Uiilis Chapman,
No#19-2454 (April 24. 2020)

/

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: April 24, 2020

Mr. Linus Richard Banghart-Linn
Michigan Department of Attorney General
P.O. Box 30217
Lansing, MI 48909
Mr. Jomiah Washington
Thumb Correctional Facility
3225 John Conley Drive
Lapeer, MI 48446
Re: Case No. 19-2454, Jomiah Washington v. Willis Chapman, et al
Originating Case No.: 4:18-cv-12139
Dear Messrs. Banghart-Linn and Washington,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Ryan E. Orme
Case Manager
Direct Dial No. 513-564-7079
cc: Mr. David J. Weaver
Enclosure
No mandate to issue

No. 19-2454
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

JOMIAH WASHINGTON,
Petitioner-Appellant,
v.
WILLIS CHAPMAN, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

Apr 24, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, Circuit Judge.
Jomiah Washington, a Michigan prisoner proceeding pro se, appeals a district court
judgment denying his petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254.
Washington has filed an application for a certificate of appealability.
Washington was sentenced to life imprisonment after being convicted of first-degree
premeditated murder, assault of a pregnant individual intentionally causing miscarriage, stillbirth,
or death, mutilation of a dead body, and possession of a firearm during the commission of a felony.
The Michigan Court of Appeals affirmed his convictions and sentence, and the Michigan Supreme
Court denied leave to appeal. People v. Washington, No. 316428, 2014 WL 4628883 (Mich. Ct.
App. Sept. 16, 2014) (per curiam),perm. app. denied, 863 N.W.2d 58 (Mich. 2015). The Michigan
courts also denied Washington’s motion for relief from judgment. People v. Washington, 908
N.W.2d 886 (Mich. 2018) (mem.).
Washington then filed a petition for a writ of habeas corpus, arguing that his right to a
public trial was violated; he received ineffective assistance of trial counsel; a witness was coerced
into testifying against him; the prosecutor committed misconduct; there was insufficient evidence
in support of his murder conviction; his right to counsel was violated; and he received ineffective

No. 19-2454
-2-

assistance of appellate counsel. The district court denied the § 2254 petition and declined to issue
a certificate of appealability.
Washington now seeks a certificate of appealability on his claims that his right to a public
trial was violated, a witness was coerced into testifying against him, the prosecutor committed
misconduct, there was insufficient evidence in support of his murder conviction, his right to
counsel was violated, and he received ineffective assistance of appellate counsel when counsel
failed to raise claims presented in his motion for post-conviction relief. Washington has forfeited
review of the issues that he raised in the district court but did not raise in his application for a
certificate of appealability. See 28 U.S.C. § 2253(c)(3); Jackson v. United States, 45 F. App’x
382, 385 (6th Cir. 2002) (per curiam).
A certificate of appealability may be issued “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy this standard,
the petitioner must demonstrate “that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). Where the state courts have adjudicated the petitioner’s claims on the merits, the relevant
question is whether the district court’s application of 28 U.S.C. § 2254(d) to those claims is
debatable by jurists of reason. See id. at 336-37.
Washington argues that his right to a public trial was violated when the judge presiding
over his preliminary examination asked some spectators to leave the courtroom after a witness
complained that those spectators were intimidating her. The Sixth Amendment guarantees that,
“[i]n all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial.” U.S.
Const, amend. VI. However, “the right to an open trial may give way in certain cases to other
rights or interests, such as the defendant’s right to a fair trial or the government’s interest in
inhibiting disclosure of sensitive information.” Waller v. Georgia, 467 U.S. 39, 45 (1984). In
order to justify the partial closure of a courtroom, the only clearly established federal law is that
“the trial court must balance the interests favoring closure against those opposing it.” Drummond

No. 19-2454
-3-

v. Houk, 797 F.3d 400, 404 (6th Cir. 2015). Although Washington asserts that the trial court’s
decision was based on an unreasonable determination of the facts, the transcript of the pretrial
hearing explicitly shows that spectators were told to leave the courtroom after a witness
complained that spectators were making faces at her. In light of the deference due to state court
factual determinations, reasonable jurists would not debate the district court’s resolution of this
claim.
Washington claims that his due process rights were violated when a witness was coerced
into testifying against him. Specifically, Washington asserts that a witness who initially testified
at an investigative subpoena hearing that Washington told her that he shot and killed the victim,
that the shooting was an accident, and that he disposed of the victim’s body, subsequently
repudiated her prior testimony at Washington’s preliminary hearing, where she testified that she
had been coerced by a police detective into implicating Washington. The witness was called to
testify at Washington’s trial, but invoked the Fifth Amendment; however, the prosecutor was
allowed to read her previous testimony into the record, and the detective took the stand and denied
threatening the witness or telling her what to say. Because there is no dispute that the state courts
failed to review the merits of this claim, it was subject to de novo review in the district court. See
Hudson v. Jones, 351 F.3d 212, 215 (6th Cir. 2003). However, since Washington never requested
an evidentiary hearing in state court, he has failed to develop a factual basis in support of this
claim. See Carver v. Staub, 349 F.3d 340, 351 (6th Cir. 2001). Moreover, Washington is unable
to develop the factual basis before the district court because the claim does not rely upon a new
rule of constitutional law and the factual predicate underlying the claim could have been previously
discovered through the exercise of due diligence.

See 28 U.S.C. § 2254(e)(2).

Because

Washington thus has not made and cannot make a substantial showing that the witness was
coerced, reasonable jurists would not debate the district court’s resolution of this claim.
Washington argues that the prosecutor committed misconduct by presenting false
testimony. Specifically, Washington asserts that the prosecutor presented testimony implicating
him after the witness recanted and stated that she was coerced by a police detective into making

No. 19-2454
-4-

the statements against him. In order to establish prosecutorial misconduct for presenting false
testimony, the defendant must show that (1) the statement was actually false; (2) the statement was
material; and (3) the prosecution knew that it was false. Peoples v. Lafler, 734 F.3d 503, 516 (6th
Cir. 2013). Washington has failed to establish that the witness’s initial testimony implicating him
at the investigative subpoena hearing was false. Although the witness recanted her initial
testimony, her testimony at the preliminary examination that she was coerced by a police detective
into implicating Washington lacked credibility. During Washington’s trial, the detective denied
threatening the witness and explicitly stated that he did not tell her what to say. Moreover, the
prosecutor presented evidence that the witness was the mother of two of Washington’s children
and that she visited Washington multiple times in prison after her testimony at the investigative
subpoena hearing, showing that she had a motive to testify falsely at the preliminary examination.
Under these circumstances, Washington cannot establish that the witness’s initial testimony
implicating him was actually false. In any event, because it is not clear whether the witness
testified falsely at the investigative subpoena hearing or at the preliminary examination,
Washington has failed to show that the prosecutor knew that the witness’s testimony implicating
him was false. Accordingly, reasonable jurists would not debate the district court’s resolution of
this claim.
Washington argues that there was insufficient evidence in support of his murder conviction.
When reviewing insufficient-evidence claims, a court must first determine “whether, after viewing
the evidence in the light most favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia, 443
U.S. 307, 319 (1979). Michigan law provides that a conviction for first-degree murder requires
proof that “the defendant intentionally killed the victim and that the act of killing was premeditated
and deliberate.” People v. Jackson, 808 N.W.2d 541, 547 (Mich. Ct. App. 2011) (quoting People
v. Kelly, 588 N.W.2d 480, 488 (Mich. Ct. App. 1998)). “Premeditation and deliberation can be
established through ‘(1) the prior relationship of the parties; (2) the defendant’s actions before the
killing; (3) the circumstances of the killing itself; and (4) the defendant’s conduct after the

No. 19-2454
-5homicide.’” People v. Orr, 739 N.W.2d 385, 389 (Mich. Ct. App. 2007) (per curiam) (quoting
People v. Schollaert, 486 N.W.2d 312, 318 (Mich. Ct. App. 1992)). The evidence in this case
included testimony that Washington was the father of the victim’s unborn child; that Washington
had threatened to kill the victim if she did not have an abortion; that Washington had previously
choked the victim; that the victim had been shot in the head; and that Washington attempted to
conceal the shooting by burning the victim’s body. In light of this evidence, Washington has not
made a substantial showing that he was convicted of first-degree murder on insufficient evidence.
Accordingly, reasonable jurists would not debate the district court’s resolution of this claim.
Washington asserts that his Sixth Amendment right to counsel was violated when he was
not represented by counsel at his arraignment. However, Washington has failed to make a
substantial showing of the denial of a federal constitutional right because, under Michigan law, an
arraignment is not a critical stage of the proceedings that requires the assistance of counsel. See
Lundbergv. Buchkoe, 389 F.2d 154, 158 (6th Cir. 1968). Accordingly, reasonable jurists would
not debate the district court’s resolution of this claim.
Washington argues that he received ineffective assistance of appellate counsel when
counsel failed to raise his public-trial, coerced-testimony, prosecutorial-misconduct, insufficientevidence, and right-to-counsel claims. To show ineffective assistance when appellate counsel
presents one argument instead of another, “the petitioner must demonstrate that the issue not
presented ‘was clearly stronger than issues that counsel did present.’” Caver v. Straub, 349 F.3d
340, 348 (6th Cir. 2003) (quoting Smith v. Robbins, 528 U.S. 259, 288 (2000)). Because
Washington is unable to make a substantial showing that the underlying claims were meritorious,
he is unable to show that these claims were stronger than the issues that counsel did present. See
Sylvester v. United States, 868 F.3d 503, 510 (6th Cir. 2017). Accordingly, reasonable jurists
could not disagree with the district court’s rejection of this claim.

No. 19-2454
-6Based upon the foregoing, the court DENIES Washington’s application for a certificate of
appealability.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX;B
Opinion denying petition for
of habeas corpus.
.
See Washington
v Chapman, 2019 US Dist LEXIS writ
198972 (Nov 18, 201 9)

Case 4:18-cv-12139-MFL-MKM ECF No. 15 filed 11/18/19

PagelD.2832

Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOMIAH WASHINGTON,
Petitioner,

Case No. 18-cv-12139
Hon. Matthew F. Leitman

v.
WILLIS CHAPMAN,
Respondent.

JUDGMENT
The above entitled action came before the Court on a petition for a writ of habeas
corpus. In accordance with the Order entered on November 18, 2019:
IT IS ORDERED AND ADJUDGED that the petition for writ of habeas corpus is
DISMISSED WITH PREJUDICE.
IT IS FURTHER ORDERED that a certificate of appealability is DENIED.
IT IS FURTHER ORDERED that permission to appeal in forma pauperis is
GRANTED.
DAVID J. WEAVER
CLERK OF THE COURT
By: s/Hollv A. Monda
Deputy Clerk
Approved:
s/Matthew F. Leitman
Matthew F. Leitman
United States District Court

Dated: November 18, 2019
Flint, Michigan

1

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2803

Page 1 of 29

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOMIAH WASHINGTON,
Case No. 18-cv-12139
Hon. Matthew F. Leitman

Petitioner,
v.
WILLIS CHAPMAN,
Respondent.

OPINION AND ORDER (11 DENYING PETITION FOR WRIT OF
HABEAS CORPUS (ECF NO. 1), (2) DENYING A CERTIFICATE OF
APPEALABILITY. AND (31 GRANTING LEAVE TO APPEAL
IN FORMA PAUPERIS
Petitioner Jomiah Washington is a state prisoner currently confined at the
Thumb Correctional Facility in Lapeer, Michigan. On July 9, 2018, Washington
filed a pro se petition in this Court seeking a writ of habeas corpus pursuant to 28
U.S.C. § 2254 (the “Petition”) (See ECF No. 1.) In the Petition, Washington
challenges his state-court convictions for first-degree premeditated murder, Mich.
Comp. Laws § 750.316; assault of a pregnant individual intentionally causing
miscarriage, stillbirth, or death, Mich. Comp. Laws § 750.90b(a); mutilation of a
dead body, Mich. Comp. Laws § 750.160; and possession of a firearm in the
commission of a felony, Mich. Comp. Laws § 750.227b.

1

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19 PagelD.2804 Page 2 of 29

The Court has carefully reviewed Washington’s claims and concludes that he
is not entitled to federal habeas relief. Accordingly, for the reasons stated below,
the Court DENIES the Petition.
I
The facts underlying Washington’s convictions are as follows.
In May 2011, the burned body of a woman named Daborah Young was found
in a field. Young had been fatally shot in the head. At the time of Young’s death,
she was approximately 20 weeks pregnant.
Washington became a prime suspect in Young’s murder. He was the father
of Young’s unborn child, and several witnesses said that Washington had threatened
to kill Young if she did not have an abortion. Another witness said that Washington
had also choked Young on a prior occasion.
The only witness to directly link Washington to Young’s murder and the
burning of her body was a woman named Amanda Baer. Baer is the mother of
Washington’s two children. On June 23,2011, before the State filed charges against
Washington, Baer appeared at an investigative subpoena hearing.

During that

hearing, Baer testified under oath that Washington had told her that he shot and killed
Young, but the shooting was an accident. Baer further testified at the investigative
subpoena hearing that Washington had admitted to disposing of Young’s body.

2

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2805

Page 3 of 29

Not long after Baer testified at the investigative subpoena hearing,
Washington was arrested and charged with Young’s death,

His preliminary

examination was held over four days in December 2011 and May and June 2012.
Baer testified at the preliminary examination. By that time, she had a change
of heart and no longer wanted to implicate Washington in Young’s death. During
her testimony, she repudiated most, if not all, of her testimony from the investigative
subpoena hearing that incriminated Washington. More specifically, Baer testified
that prior to the investigate subpoena hearing, a detective investigating Young’s
murder, Brian Bowser, had her (Baer) arrested. Baer said that Bowser told her that
if she did not implicate Washington in Young’s death, Bowser would take Baer’s
children away from her and force Baer, who was pregnant at the time, to give birth
in custody.
The prosecution then confronted Baer with her testimony from the
investigative subpoena hearing that Washington had admitted to shooting Young
and disposing of her body. Baer confirmed that she gave that testimony, but she said
that it was not true and that she made it up in order to placate Bowser:
Q: The next question I [the prosecutor] asked you [at the
investigative subpoena hearing] was “What was the very
first version of the story that [Washington] told you?” And
your answer was “He was playing with his gun in the
backyard. His gun went off, and he went in the front yard
and there was a girl shot.” Is that true that he -

3

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2806

Page 4 of 29

A: I said that but I only said that because they told me if I
didn’t come up with some type of story they were going to
take my kids, put me in jail for accessory to murder that I
didn’t do. So I said what I had to say to get out of my
situation.
Q: Okay. You said that but it wasn’t true?
A: Right.
[....]
A: Because me and Detective Bowser - he already went
over so many things with me for those two, three days I
was in jail. I was sitting on hard cement all day. We went
over all that already. That’s how I came with my answers
because to get out of my situation, this is what I had to do.
I had to go on a report and I had to say [Washington] did
this, that, and other to get out of it. That’s basically what
[Bowser] explained to me, that, “If you say that
[Washington] did that, I don’t care if you did it or not, if
you say that [Washington] did it then you’re free.” So I
was gone.”
(Prelim. Exam. Tr., ECF No. 8-3, PageID.443, 454; see also id. at PageID.455.) At
the conclusion of the preliminary examination, the state court was faced with both
(1) Baer’s confirmation that she incriminated Washington at the investigative
subpoena hearing and (2) Bear’s insistence that that incriminating testimony was not
true. The state court then considered the entirety of Baer’s testimony and all of the
other evidence presented at the preliminary examination, and it concluded that there
was enough evidence to bind Washington over for trial.

4

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2807

Page 5 of 29

At trial, Baer was called as a witness. However, she invoked her Fifth
Amendment right against self-incrimination and did not testify.

Instead, the

prosecution read Baer’s testimony from the preliminary examination into the record.
Importantly, as quoted above, that preliminary examination testimony included the
prosecution reading back to Baer portions of her testimony from the investigative
subpoena hearing in which she implicated Washington in Young’s death. Therefore,
the jury heard both (1) Baer’s statements from the investigative subpoena hearing
implicating Washington and (2) Baer’s assertion at the preliminary examination that
those incriminating statements were false and coerced by Bowser.
On April 18,2013, a jury convicted Washington of all charges. The state trial
court subsequently sentenced him to life in prison for the murder conviction, time
served on the mutilation of a dead body conviction, eight-to-fifteen years for the
assault conviction, and a consecutive two-year sentence for felony firearm.
Washington appealed his convictions to the Michigan Court of Appeals, and
that court affirmed. See People v. Washington, 2014 WL 4628883 (Mich. Ct. App.
Sept. 16,2014. The Michigan Supreme Court thereafter denied leave to appeal. See
People v. Washington, 863 N.W. 2d 58 (Mich. 2015).
Washington then filed a post-conviction motion for relief from judgment in
the state trial court. That court denied the motion on May 25, 2016. See People v.
Washington, Wayne Cir. Ct. Case No. 12-006201-FC (Wayne Cir. Ct. May 25,
5

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2808 Page 6 of 29

2016). The Michigan appellate courts then denied Washington leave to appeal that
decision. See People v. Washington, Mich. Ct. of Appeal Case No. 334514
(Mich.Ct.App. Nov. 23, 2016); /v. den. 908 N.W.2d 886 (Mich. 2018),
reconsideration denied, 913 N.W.2d 313 (Mich. 2018).
II
Washington, appearing pro se, filed the Petition in this Court on July 9,2018.
(See Pet., ECF No. 1.) Washington described his claims, and the standards he
believes that the Court should apply to those claims, as follows:
I.

Where [Washington] was denied his constitutional right to a
public pre-trial hearing, habeas relief is appropriate because the
state court’s decision was both contrary to clearly established
federal law and involved an unreasonable determination of the
facts.

II.

Trial counsel was constitutionally ineffective for (a) failing to
obtain copies of the interviews by police officers with Amanda
Baer so that he could properly cross-examine her at the
preliminary examination, and (b) failing to object to the pretrial
courtroom closure.

III.

[Washington’s] conviction was predicated on coerced testimony
police-induced, by threats made upon the prosecutor’s key
witness in violation of the Fourteenth Amendment right to due
process of law, which rendered the entire trial proceedings
fundamentally unfair. Because the state courts did not reach the
merits of this claim, review on habeas is de novo and the
deference standard of 2254(d) does not apply.

IV.

[Washington] is entitled to habeas relief where the prosecutor
knowingly presented false testimony in violation of due process
of law. Because the state courts did not reach merits of this claim,
6

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2809

Page 7 of 29

the deference standard of AEDPA does not apply, hence this
Court should apply de novo review.
V.

Where the prosecution presented testimony that the shooting was
accidental, the state court’s finding that there was sufficient
evidence of premeditation involved [was] an objectively
unreasonable application of clearly established Supreme Court
precedent, thus habeas relief is warranted.

VI.

[Washington] is entitled to habeas where he was denied counsel
[at his district court arraignment] in violation of the Sixth and
Fourteenth Amendmentfs] of the United States Constitution.

VII.

Where appellate counsel failed to raise constitutional claims
requested by [Washington] in the alternative, to purchase copies
of the transcripts so that he could file a Standard 4 brief pro per,
[Washington was] deprived of his right to effective assistance of
appellate counsel, and also demonstrates good cause and
prejudice for not presenting the claims on appeal as of right.

{Id.)

Ill
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
requires federal courts to uphold state court adjudications on the merits unless the
state court’s decision (1) “was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the
United States,” or (2) “was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d).
“The question under AEDPA is not whether a federal court believes the state court’s

7

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2810

Page 8 of 29

determination was incorrect but whether that determination was unreasonable—a
substantially higher threshold.” Schriro v. Landrigan, 550 U.S. 465, 473 (2007).
In reviewing a claim under the AEDPA’s deferential standard of review, this
Court must review “the last state court to issue a reasoned opinion on the issue.”
Hoffner v. Bradshaw, 622 F. 3d 487, 505 (6th Cir. 2010) (quoting Payne v. Bell, 418
F.3d 644, 660 (6th Cir. 2005). In this case, Washington first raised most of the
claims in the Petition in his post-conviction motion for relief from judgment in the
state trial court. The Michigan Court of Appeals and the Michigan Supreme Court
both denied Washington’s applications for leave to appeal the state court’s denial of
that motion in unexplained one-sentence orders. Accordingly, this Court must “look
through” these decisions to the Wayne County Circuit Court’s opinion denying the
motion for relief from judgment, which was the last state court to issue a reasoned
opinion. See Hamilton v. Jackson, 416 F. App’x. 501, 505 (6th Cir. 2011). i

l

The state judge court judge procedurally defaulted several of Washington’s claims
pursuant to Michigan Court Rule 6.508(D)(3) because Washington failed to show
cause and prejudice for failing to raise these claims on his appeal of right. However,
the state judge also denied Washington’s post-conviction claims on the merits. Thus,
AEDPA’s deferential standard of review applies to her opinion. See Moritz v. Lafler,
525 F. App’x 277, 284 (6th Cir. 2013) (“We acknowledge that the state court’s
additional language discussing Moritz’s failure to raise a choice-of-counsel claim in
earlier appeals is a reference to procedural default. But this circuit’s precedents leave
no doubt that as long as the state court put forward a merits-based ground for denying
post-conviction relief, its mentioning of procedural default as an alternative or even
primary ground for denying relief does not preclude AEDPA deference.”).
8

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2811

Page 9 of 29

IV
A
Washington first argues that he was denied his Sixth Amendment right to a
public pre-trial hearing because the judge presiding over his preliminary
examination in Michigan’s 36th District Court asked some people to leave the
courtroom during Baer’s testimony at the preliminary examination. The judge asked
the spectators to leave after Baer complained that they were intimidating her.
Washington raised this claim in his post-conviction motion for relief from judgment,
and the state trial court rejected it:
In defendant’s case, the district court judge closed the
court room, after the prosecutor’s main witness, Amanda
Baer, complained that she was being intimidated by
person(s) in the audience. Defendant argues the court
failed to consider alternatives to closing the court room
pursuant to Waller [v. Georgia, 467 U.S. 39 (1984)],
which violated his right to public hearing. This Court
disagrees. In Presley [Georgia, 558 U.S. 209 (2010)],
anyone associated with the case or the defendant, were
expressly not allowed in the court room, and the trial judge
closed the court room due to lack of space for the public
at large. In defendant’s case, protection of a witness from
intimidation is clearly an overriding interest justifying the
closure of the court room to the public. A witness has the
right to testify without fear of reprisals from people who
are attending the hearing in support of the defendant.
Waller, supra. As such, this Court finds no violation of
defendant’s right to a public trial.
People v. Washington, Wayne Cir. Ct. Case No. 12-006201-FC, at ** 5-6 (ECF No.
8-24, PageID.2530-2531).
9

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2812 Page 10 of 29

As the state court properly recognized, the clearly-established Supreme Court
law with respect to the closure of a courtroom in a criminal case is found in Waller
v. Georgia, 467 U.S. 39 (1984). In Waller, the Supreme Court held that the closure
of a courtroom during a criminal proceeding does not violate a defendant’s Sixth
Amendment rights where: (1) the party seeking to close the courtroom advances an
overriding interest that is likely to be prejudiced by an open courtroom; (2) the party
seeking closure demonstrates that the closure is no broader than necessary to protect
that interest; (3) the trial court considers reasonable alternatives to closing the
proceeding; and (4) the trial court makes findings adequate to support the closure.
See id. at 48. But, unlike here, Waller involved the complete closure of a courtroom.
As the United States Court of Appeals for the Sixth Circuit has recognized, Waller
did not clearly establish that its specific four part test applies “where some spectators
but not all are removed from [a] courtroom.” Drummond v. Houk, 797 F.3d 400,
403. “The only principle from Waller that [is] clearly established for purposes of [a]
partial closure [is] the general one that the trial court must balance the interests
favoring closure against those opposing it.” Id. at 404.
The state court did not unreasonably apply this clearly established “general”
rule from Waller when examining the partial closure of the courtroom at the
preliminary examination.

In this case, during Baer’s preliminary examination

testimony, several witnesses in the gallery began making faces and laughing at Baer
10

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2813

Page 11 of 29

in an attempt to distract and intimidate her. (See 12/9/2011 Prelim. Exam. Tr., ECF
No. 8-2, PageID.244.) Baer pointed the witnesses out to the presiding judge and told
the judge that she did not want those witnesses in the courtroom. (See id.) In
response, the judge did not close the courtroom completely; instead, the judge simply
asked the few disruptive spectators to leave. (See id.) The state trial court reviewing
that decision did not unreasonably apply Waller when it concluded that the presiding
judge appropriately balanced the interests for and against closure and concluded that
it was most appropriate to ask the disruptive spectators to leave the courtroom in
order to prevent them from intimidating a testifying witness. See Drummond, 797
F.3d at 402-03 (6th Cir. 2015) (denying habeas relief on basis that partial courtroom
closure violated petitioner’s right to a public trial and concluding that state court’s
application of Waller was not unreasonable).
B
Washington next claims that he was denied the effective assistance of counsel.
Ineffective-assistance claims are reviewed under the two-part test described in
Strickland v. Washington, 466 U.S. 668 (1984). First, a defendant must show that
his counsel’s performance was deficient. See id. at 687. “This requires showing that
counsel made errors so serious that counsel was not functioning as the ‘counsel’
guaranteed the defendant by the Sixth Amendment.” Id.

Counsel is “strongly

presumed to have rendered adequate assistance and made all significant decisions in
11

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2814 Page 12 of 29

the exercise of reasonable professional judgment.” Id. at 690. Second, a defendant
must show that the deficient performance prejudiced the defense such that the
defendant was denied a fair trial. The test for prejudice is whether “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Id. at 694. On habeas review, the question
is “not whether counsel’s actions were reasonable,” but “whether there is any
reasonable argument that counsel satisfied Strickland’s deferential standard.”
Harrington v. Richter, 562 U.S. 86, 105 (2011) (“The standards created by
Strickland and § 2254(d) are both ‘highly deferential,’ and when the two apply in
tandem, review is ‘doubly’ so.”)
The Court will review each of Washington’s ineffective assistance claims
separately.
1
Washington first argues that his counsel was ineffective for failing to obtain
copies of interviews police officers conducted with Baer. Washington insists that
had counsel obtained copies of those interviews, counsel could have properly crossexamined Baer at the preliminary examination. The Michigan Court of Appeals
considered this claim on direct review and rejected it:
Washington claims that his trial lawyer was ineffective for
failing to obtain copies of the interviews by police officers
with Baer so that he could properly cross-examine her at
the preliminary examination. However, Washington’s
12

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2815

Page 13 of 29

citation to the record in his brief on appeal does not
support his assertion that his lawyer failed to obtain copies
of the interviews. Washington has the burden to establish
the factual predicate for his ineffective assistance of
counsel claim and may not leave it to this Court to search
for the factual basis to sustain or reject his position.
Washington has not shown that his trial lawyer engaged in
an act or omission that fell below an objective standard of
reasonableness under prevailing professional norms.
People v. Washington, 2014 WL 4628883, at * 3 (internal citations omitted).
The Michigan Court of Appeals’ decision was not unreasonable. Washington
did not present any evidence to the state court, nor any evidence to this Court, to
support this claim of ineffective instance.

For instance, he has not presented

evidence that his counsel failed to obtain or review the police interviews with Baer.
Conclusory allegations of ineffective assistance of counsel, without any evidentiary
support, do not provide a basis for federal habeas relief. See Workman v. Bell, 178
F.3d 759, 771 (6th Cir. 1998). Washington is therefore not entitled to federal habeas
relief, or an evidentiary hearing, on this claim. See Cooey v. Coyle, 289 F.3d 882,
893 (6th Cir. 2002) (citing 28 U.S.C. § 2254(e)(2)(A)(ii)) (denying habeas relief and
evidentiary hearing on claim of ineffective assistance where petitioner “failfed] to
submit evidence” supporting the claim).

13

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19 PagelD.2816

Page 14 of 29

2

Washington next claims that his trial counsel was ineffective for failing to
object to the partial closure of the courtroom during the preliminary examination.
This claim fails because Washington cannot show the failure to object caused him
prejudice.

Counsel is not ineffective for failing to make a futile or meritless

objection. See Coley v. Bagley, 706 F.3d 741, 752 (6th Cir. 2014) (“Omitting
meritless arguments is neither professionally unreasonable nor prejudicial.”); United
States v. Steverson, 230 F.3d 221, 225 (6th Cir. 2000) (rejecting ineffective
assistance claim and holding that because “any objection to the introduction of the
records of prior felony convictions on the basis that they were obtained in violation
of [defendant’s] constitutional rights would have failed, [] trial counsel’s failure to
object to them on that basis was not deficient”). Here, Washington has not presented
any evidence to undermine the basis of the magistrate’s decision to ask the disruptive
spectators to leave the courtroom. Nor has he provided any basis for the Court to
conclude that the magistrate judge would have sustained any objection his counsel
could have raised. Washington is therefore not entitled to federal habeas relief on
this claim. See Johnson v. Sherry, 465 F. App’x. 477, 481 (6th Cir. 2012) (denying
habeas relief and rejecting claim that counsel rendered ineffective assistance where
counsel failed to object to closure of courtroom because “the judge would likely
have overruled the objection, and the court of appeals would have likely affirmed”).
14

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2817

Page 15 of 29

C
Washington next claims that his Due Process rights were violated when
Bowser coerced Baer into testifying against him (Washington) at Washington’s
preliminary examination.
Washington raised this claim in his post-conviction motion for relief from
judgment in the state trial court. The state judge on post-conviction review never
addressed the merits of the claim because the judge mistakenly believed that the
issue had been raised on direct appeal. See People v. Washington, Wayne Cir. Ct.
No. 12-006201-FC, at *6. (ECF No. 8-24, PageID.2531). This Court will therefore
review the claim de novo}
Washington asserts that he is entitled to federal habeas relief on this claim
based upon the decision in Bradford v. Johnson, 476 F.2d 66 (6th Cir. 1973). In
Bradford, the United States Court of Appeals for the Sixth Circuit affirmed “the
granting of a writ of habeas corpus” where the petitioner’s conviction resulted from
the “state’s knowing use of coerced testimony obtained by torture, threats and abuse
of a witness is in custody.” Id. at 66. Washington insists that, like the petitioner in

2 After this Court determined that the state court had failed to address this claim on
the merits, it asked the parties to submit supplemental briefs addressing, among other
things, the standard of review that this Court should apply to this claim. {See Order,
ECF No. 10.) Respondent thereafter acknowledged that this claim “was not
adjudicated on the merits in state-court proceedings,” and that this Court should
therefore “review the claim de novo.” (Respondent Supp. Br., ECF No. 11,
PageID.2776.)
15

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19 PagelD.2818 Page 16 of 29

Bradford, he is entitled to habeas relief because his conviction resulted from the “use
of coerced testimony.” Id.
The Court disagrees that Bradford compels habeas relief. In Bradford, it was
undisputed that the conviction resulted from coerced testimony. But here, there is a
factual dispute on that key issue. As described in detail above, Baer testified at the
preliminary examination that Bowser threatened and coerced her to testify against
Washington. But Bowser denies that he ever threatened Baer or pressured her to
incriminate Washington. (See 4/12/2013 Trial Tr., ECF No. 8-15, PageID.18801884.) And Washington never presented any evidence or otherwise sought to
resolve this factual dispute. For example, because Washington never asked the state
court for an evidentiary hearing to resolve this dispute, the state court never
conclusively determined whether Baer’s testimony was in fact coerced. He therefore
has not established that he is entitled to federal habeas relief on this claim. See, e.g.,
Carver v. Staub, 349 F.3d 340, 351 (6th Cir. 2001) (noting that a habeas petitioner
“has the burden of establishing his right to federal habeas relief and of proving all
facts necessary to show a constitutional violation”).
This Court cannot resolve now resolve the factual dispute regarding whether
Baer’s testimony was coerced. In order to resolve that factual dispute, the Court
would need to hold an evidentiary hearing. But AEDPA bars the Court from doing
so. Under AEDPA where, as here, a petitioner has failed to develop a factual basis
16

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19 PagelD.2819

Page 17 of 29

for his claim in state court, a federal court may hold an evidentiary hearing only in
certain limited circumstances:
[where an] applicant has failed to develop the factual basis
of a claim in State court proceedings, [a district] court shall
not hold an evidentiary hearing on the claim unless the
applicant shows that (A) the claim relies on (i)

a new rule of constitutional law, made retroactive to
cases on collateral review by the Supreme Court,
that was previously unavailable; or

(ii)

a factual predicate that could not have been
previously discovered through the exercise of due
diligence;

28 U.S.C. § 2254(e)(2).3
Washington has not satisfied either of these exceptions. First, Washington
has not even attempted to argue that the Court should hold an evidentiary hearing
because of a “new rule of constitutional law.” Second, Washington has failed to
establish that “the factual predicate [of his coercion claim] could not have been
previously discovered through the exercise of due diligence.” Id.

Under this

provision, “[diligence will require in the usual case that the prisoner, at a minimum,
seek an evidentiary hearing in state court in the manner prescribed by state law.”

3 This provision of AEDPA applies where “a claim has not been adjudicated on the
merits in a state court proceeding.” Keeling v. Warden, Lebanon Correctional Inst.,
673 F.3d 452, 464 (6th Cir. 2012).
17

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2820 Page 18 of 29

Keeling v. Warden, Lebanon Correctional Inst., 673 F.3d 452, 464 (6th Cir. 2012)
(quoting Williams v. Taylor, 529 U.S. 420, 437 (2000)). Here, Washington raised
his claim that Baer was coerced in his post-conviction motion for relief from
judgment. But he never moved the state court for an evidentiary hearing on this
claim. Nor has he ever argued that his counsel was ineffective for failing to seek
such an evidentiary hearing.4
Simply put, this Court cannot hold an evidentiary hearing because
Washington did not exercise the required diligence in state court. And without
holding an evidentiary hearing, the Court cannot resolve the disputed question of
fact regarding Baer’s testimony in Washington’s favor. Washington is therefore not
entitled to federal habeas relief on this claim.
D
Washington next asserts that prosecution violated his Due Process rights when
the it knowingly presented perjured testimony at Washington’s trial.

More

specifically, Washington claims that Baer’s testimony at the investigative subpoena

4 Importantly, while Washington’s trial counsel did not move to exclude Baer’s
testimony from the investigative subpoena hearing on the ground that it was coerced,
he did argue to the jury during closing arguments that Baer had admitted that she
“committed perjury” and “lied over and over again” at the investigative subpoena
hearing. (4/17/2013 Trial Tr., ECF No. 8-17, PageID.2060-2061.) He also argued
to the jury that they should disbelieve Baer’s testimony incriminating Washington
at the investigative subpoena hearing because that testimony was Baer’s “only way
out” of jail. {Id., PageID.2162; see also id., PageID.2060-2063.)
18

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2821

Page 19 of 29

hearing that Washington had incriminated himself was false and that the prosecutor
knew this testimony was false when the prosecutor had that testimony read into the
record at Washington’s trial.5
Washington is not entitled to federal habeas relief on this claim. To prevail
on a claim that a conviction was obtained by evidence that the government knew or
should have known to be false, a defendant must show that the statements were
actually false, that the statements were material, and that the prosecutor knew they
were false. See Coe v. Bell, 161 F. 3d 320, 343 (6th Cir. 1998). Mere inconsistencies
in a witness’ testimony do not establish the knowing use of false testimony by the
prosecutor. Id. Moreover, the fact that a witness contradicts himself or herself or
changes his or her story does not establish perjury. Malcurn v. Burt, 276 F. Supp. 2d
664, 684 (E.D. Mich. 2003). Finally, allegations of perjury in a habeas corpus
petition must be corroborated by some factual evidence in the record. See Barnett v.
United States, 439 F.2d 801, 802 (6th Cir. 1971) (“allegations” that “do no more

5 Washington raised this claim in his post-conviction motion for relief from
judgment in state court. The state court declined to rule on it though because the
state court held that the Michigan Court of Appeals had rejected this argument on
direct appeal. People v. Washington, Wayne Cir. Ct. No. 12-006201-FC, at *6 (ECF
No. 8-25, Page ID. 2702). However, while the Michigan Court of Appeals did
address an argument that Washington raised on direct appeal with respect to Bear’s
testimony at the investigative subpoena hearing, it is not clear from the Michigan
Court of Appeals’ decision that it addressed this claim specifically. Out of an
abundance of caution, this Court will review the claim de novo.
19

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2822

Page 20 of 29

than establish the appearance of inconsistencies in testimony” are insufficient to
establish the knowing use of perjured testimony by the prosecution).
Here, for all of the reasons explained above, there is an unresolved factual
dispute with respect to whether Baer offered false testimony at the investigative
subpoena hearing. Therefore, Washington has not made a clear showing of perjury.
Moreover, Washington has not shown or identified any evidence that the prosecution
knew that Baer had testified falsely at the investigative subpoena hearing when it
had that testimony read into the record at Washington’s trial.

Washington is

therefore not entitled to federal habeas relief on this claim.
E
Washington next claims that there was insufficient evidence to convict him of
first-degree premeditated murder because there was insufficient evidence of
premeditation. Washington also suggests that there was insufficient evidence to
establish his identity as the shooter.
Washington raised an insufficiency-of-the-evidence claim in his post­
conviction motion for relief from judgment in the state trial court. The state judge
rejected the claim and held that there was sufficient evidence of premeditation to
support Washington’s first-degree murder conviction. See People v. Washington,
Wayne Cir. Ct. No. 12-006201-FC, at *11 (ECF 8-25, PageID.2707).

20

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2823

Page 21 of 29

The clearly established federal law governing Washington’s sufficiency of the
evidence claim is found in the line of Supreme Court decisions concerning the level
of proof necessary to satisfy the Due Process Clause. In In re Winship, 397 U.S. 358,
364 (1970), the Supreme Court held that “the Due Process Clause protects the
accused against conviction except upon proof beyond a reasonable doubt of every
fact necessary to constitute the crime with which he is charged.” And in Jackson v.
Virginia, 443 U.S. 307, 319 (1979), the Supreme Court determined that sufficient
evidence supports a conviction if, “after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.”
The review of insufficiency of the evidence claims under the Jackson standard
is especially deferential in the habeas context. In habeas proceedings, the sufficiency
of the evidence inquiry involves “two layers of deference”: one to the jury verdict
and a second to the decision by the state appellate court. Tanner v. Yukins, 867 F.3d
661, 672 (6th Cir. 2017). First, the Court “must determine whether, viewing the trial
testimony and exhibits in the light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime beyond a reasonable
doubt.” Brown v. Konteh, 567 F.3d 191, 205 (6th Cir. 2009) (citing Jackson, 443
U.S. at 319) (emphasis in Jackson). Second, if the Court were “to conclude that a
rational trier of fact could not have found a petitioner guilty beyond a reasonable
21

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19 PagelD.2824 Page 22 of 29

doubt, on habeas review, [the Court] must still defer to the state appellate court’s
sufficiency determination as long as it is not unreasonable.” Id. When applying these
two layers of deference, the Court’s task is to “determine whether the [ ] [last court
of review] itself was unreasonable in its conclusion that a rational trier of fact could
find [the defendant] guilty beyond a reasonable doubt based upon the evidence
introduced at trial.” Id. (emphasis in original).
The state trial court did not unreasonably conclude that there was sufficient
evidence of premeditation. Under Michigan law, premeditation may be established
through evidence of “(1) the prior relationship of the parties, (2) defendant’s actions
before the killing, (3) the circumstances, including the wound’s location, of the
killing, and (4) defendant’s conduct after the killing.” Cyars v. Hofbauer, 383 F.3d
485,491 (6th Cir. 2004). See also People v. Anderson, 531 N.W.2d 780, 786 (Mich.
App. 1995). Premeditation under Michigan law may also be logically inferred from
wounds inflicted on vital parts of the victim’s body. See Lundberg v. Buchkoe, 338
F. 2d 62,69 (6th Cir. 1964).
Here, the evidence established that Washington and the victim had a prior
relationship, Washington had previously threatened the victim, the victim had been
shot in the head, and that Washington had attempted to conceal his crime by burning
the victim’s body after the murder.

Under these circumstances, it was not

22

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2825

Page 23 of 29

unreasonable for the state court to conclude that there was sufficient evidence of
premeditation.
Washington further argues that there was insufficient evidence to establish his
identity as the shooter. But, as described above, Baer testified at the investigative
subpoena hearing that Washington had told her that he had shot the victim. “[A]n
admission by the accused identifying himself (or herself) as the person involved in
the (crime) is sufficient to sustain a guilty verdict when the crime itself is shown by
independent evidence.” United States v. Opdahl, 610 F. 2d 490,494 (8th Cir. 1979);
See Johnson v. Coyle, 200 F.3d 987, 992 (6th Cir. 2000) (petitioner’s identity as
murderer supported in part by evidence that he confessed several times to murdering
sister). Moreover, Washington’s prior threats to kill the victim was additional
evidence to permit a rational trier of fact to conclude that petitioner was the person
who murdered the victim. See Pinchon v. Myers, 615 F. 3d 631, 643-44 (6th Cir.
2010).
Washington counters that there was insufficient evidence to convict him
because the police did not recover DNA evidence, fingerprints, or other forensic
evidence to convict him of premeditated murder. But “lack of physical evidence
does not render the evidence presented insufficient; instead it goes to weight of the
evidence, not its sufficiency.” Gipson v. Sheldon, 659 F. App’x 871, 882 (6th Cir.
2016).
23

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2826

Page 24 of 29

For all of these reasons, Washington is not entitled to federal habeas relief
based on the insufficiency of the evidence.
F
Next, Washington that he was denied his Sixth Amendment right to counsel
because he was not represented by an attorney at his initial arraignment on the
warrant Michigan’s 36th District Court. Washington raised this claim in his post­
conviction motion for relief from judgment in the state trial court, and the state court
rejected it. See People v. Washington, Wayne Cir. Ct. No. 12-006201-FC, at ** 1112 (ECF 8-25, PageID.2707-2708).
Even assuming arguendo that Washington was denied the assistance of
counsel at his arraignment on the warrant, he is not entitled to federal habeas relief
i

because he has not shown how the absence of counsel at that proceeding caused him
prejudice. The Supreme Court has held that the denial of counsel at an arraignment
requires automatic reversal, without any harmless-error analysis, in only two
situations: (1) when defenses not pled at arraignment were irretrievably lost, see
Hamilton v. Alabama, 368 U.S. 52, 53-54 (1961); and (2) when a full admission of
guilt entered at an arraignment without counsel was later used against the defendant
at trial, despite subsequent withdrawal. See White v. Maryland, 373 U.S. 59, 60
(1963) (per curiam). Neither of those situations exists here. Washington is therefore
not entitled to federal habeas relief on this claim. See Whitsell v. Perini, 419 F. 2d
24

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2827

Page 25 of 29

95 (6th Cir. 1969) (petitioner not entitled to habeas relief based on fact that he was
not represented by counsel at his arraignment where petitioner pleaded not guilty at
arraignment and no incriminating statements were brought out and later used at
trial); Doyle v. Scutt, 347 F. Supp. 2d 474, 481 (E.D. Mich. 2004) (same).
G
Finally, Washington claims that his appellate counsel was ineffective for
failing to raise certain unidentified claims on direct appeal that Washington later
raised in his post-conviction motion for relief from judgment. Washington raised
this claim in his post-conviction motion for relief from judgment in the state trial
court, and the state court rejected it:
[F]or Defendant to obtain postconviction relief for
ineffective assistance of appellate counsel based upon
counsel’s failure to present all possible claims on appeal;
he must show appellate counsel’s representation fell below
an objective standard of reasonableness and that appellate
counsel’s representation was constitutionally deficient. In
order to establish a claim of ineffective assistance of
appellate counsel, Defendant must show that appellate
counsel was ineffective for failing to raise an issue on
appeal. Defendant must overcome the presumption that
the failure to raise an issue was sound appellate strategy
and must establish that the deficiency was prejudicial.
People v. Reed, 198 Mich App 639, 646-647; 499 NW2d
441 (1993), and aff’d 449 Mich 375; 535 NW2d 496
(1995). Here, Defendant has not done so. As this Court did
not find merit in any of these issues appellate counsel
decided not to pursue, Defendant cannot show he was
prejudiced by appellate counsel’s failure to raise any of the
issues contained in this motion. MCR 6.508(D)(3). Under
the deferential standard of review, appellate counsel’s
25

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2828 Page 26 of 29

decision to winnow out weaker arguments in pursuit of
those that may be more likely to prevail is not evidence of
ineffective assistance of counsel. Reed, supra at 391.
Moreover, counsel’s failure to assert all arguable claims is
not sufficient to overcome the presumption that counsel
functioned as a reasonable appellate attorney. Thus,
Defendant’s ineffective assistance of counsel argument
must fail.
People v. Washington, Wayne Cir. Ct. No. 12-006201-FC, at ** 12-13 (ECF No. 825, PageID.2708-2709). That decision was not unreasonable.
“[A]ppellate counsel cannot be found to be ineffective for ‘failure to raise an
issue that lacks merit.’” Shaneberger v. Jones, 615 F.3d 448, 452 (6th Cir. 2010)
(quoting Greer v. Mitchell, 264 F.3d 663, 676 (6th Cir. 2001)). And for all of the
reasons stated above, Washington has not shown that any of the claims that he
wanted his appellate counsel to raise on direct review were meritorious. He therefore
has not shown that he is entitled to federal habeas relief on this claim.
Washington also claims that his appellate counsel was ineffective for failing
to provide Washington with the trial transcripts so that Washington could file his
own supplemental pro per appellate brief. But a criminal defendant has no federal
constitutional right to self-representation on direct appeal from a criminal
conviction. See Martinez v. Court ofAppeal ofCalifornia, 528 U.S. 152,163 (2000).
And by accepting the assistance of counsel, a criminal appellant waives his right to
present pro se briefs on direct appeal. See Myers v. Johnson, 76 F. 3d 1330, 1335
(5th Cir. 1996); See also Henderson v. Collins, 101 F. Supp. 2d 866, 881 (S.D. Ohio
26

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2829

Page 27 of 29

1999); aff’d in part, vacated in part on other grds 262 F. 3d 615 (6th Cir. 2001)
(defendant who was represented by counsel and also sought to submit pro se brief
upon appeal did not have right to such hybrid representation). Thus, a defendant
does not have a constitutional entitlement to submit a pro per appellate brief on
direct appeal from a criminal conviction in addition to a brief submitted by the
defendant’s appellate counsel. See McMeans v. Brigano, 228 F. 3d 674, 684 (6th
Cir. 2000). Because Washington was represented by appellate counsel, any failure
by the trial court or appellate counsel to provide him with trial transcripts so that he
could prepare his own pro per brief did not violate Washington’s constitutional
rights. See U.S. v. Dierling, 131 F.3d 722, 734, n. 7 (8th Cir. 1997); Foss v. Racette,
2012 WL 5949463, at *4 (W.D.N.Y. Nov. 28, 2012). Washington is therefore not
entitled to federal habeas relief on his ineffective assistance of appellate counsel
claim.
IV
In order to appeal the Court’s decision, Washington must obtain a certificate
of appealability. To obtain a certificate of appealability, a prisoner must make a
substantial showing of the denial of a constitutional right. See 28 U.S.C. §
2253(c)(2). To demonstrate this denial, the applicant is required to show that
reasonable jurists could debate whether the petition should have been resolved in a
different manner, or that the issues presented were adequate to deserve
27

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19 PagelD.2830 Page 28 of 29

encouragement to proceed further. See Slack v. McDaniel, 529 U.S. 473, 483-84
(2000).

Here, jurists of reason would not debate the Court’s conclusion that
Washington has failed to demonstrate entitlement to habeas relief with respect to
any of his claims because they are all devoid of merit. Therefore, the Court will
DENY Washington a certificate of appealability.
Finally, although this Court declines to issue Washington a certificate of
appealability, the standard for granting an application for leave to proceed in forma
pauperis on appeal is not as strict as the standard for certificates of appealability.
See Foster v. Ludwick, 208 F.Supp.2d 750, 764 (E.D. Mich. 2002). While a
certificate of appealability may only be granted if a petitioner makes a substantial
showing of the denial of a constitutional right, a court may grant in forma pauperis
status if it finds that an appeal is being taken in good faith. See id. at 764-65; 28
U.S.C. § 1915(a)(3); Fed. R.App.24 (a). Although jurists of reason would not debate
this Court’s resolution of Washington’s claims, an appeal could be taken in good
faith. Accordingly, the Court GRANTS Washington permission to proceed informa
pauperis on appeal.

28

Case 4:18-cv-12139-MFL-MKM ECF No. 14 filed 11/18/19

PagelD.2831

Page 29 of 29

V
Accordingly, for the reasons stated above, the Court 1) DENIES WITH
PREJUDICE Washington’s petition for a writ of habeas corpus (ECF No. 1); 2)
DENIES Washington a certificate of appealability, and (3) GRANTS Washington
permission to proceed in forma pauperis on appeal.
IT IS SO ORDERED.
s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE
Dated: November 18, 2019

I hereby certify that a copy of the foregoing document was served upon the
parties and/or counsel of record on November 18, 2019, by electronic means and/or
ordinary mail.
s/Hollv A. Monda
Case Manager
(810)341-9764

29

appendix?r
313(2018), Order

denying motion for

Order

Michigan Supreme Court
Lansing, Michigan

July 3, 2018

Stephen J. Markman,

155007(22)

Brian K. Zahra
Bridget M. McCormack
David F. Viviano
Richard H. Bernstein
Kurds T. Wilder
Elizabeth T. Clement,

ChiefJustice

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v
JQMIAH WASHINGTON,
Defendant-Appellant.

Justices

SC: 155007
COA: 334514
Wayne CC: 12-006201-FC

On order of the Court, the motion for reconsideration of this Court’s April 3, 2018
order is considered, and it is DENIED, because it does not appear that the order was
entered erroneously.
WILDER, J., did not participate because he was on the Court of Appeals panel.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
July 3, 2018
a0625

Clerk

APPENDIX:D
People v Washington
for leave to appeal

908 NW2d 086(2018)

Order denying application

Lexis Advance®

Document: People v. Washington, 908 NW.2d 886

People v. Washington, 908 N.W.2d 886
I

Copy Citation

Supreme Court of Michigan
April 3, 2018, Decided
SC: 155007
Reporter
908 N.W.2d 886 * | 2018 Mich. LEXIS 560 ** | 501 Mich. 1034 | 2018 WL 1627713

PEOPLE OF THE STATE OF MICHIGAN, Plaintiff-Appellee, v JOMIAH WASHINGTON, Defendant-Appellant.

Subsequent History: Reconsideration denied by People v. Washington, 502 Mich. 905, 913 N.W.2d 313, 2018 Mich. LEXIS
1318 (July 3, 2018)

Prior History: [**1] COA: 334514. Wayne CC: 12-006201-FC.
People v. Washington, 2014 Mich. App. LEXIS 1726 (Mich. Ct. App., Sept. 16, 2014)

Judges: Stephen J. Markman

Chief Justice. Brian K. Zahra-*-, Bridget M. McCormack ▼, David F. Viviano ■»•,

Richard H. Bernstein ▼, Kurtis T. Wilder-w, Elizabeth T. Clement t, Justices. WILDER▼, J., did not participate because he was
on the Court of Appeals panel.

Opinion

Order
On order of the Court, the application for leave to appeal the November 23, 2016 order of the Court of Appeals is
considered, [*887] and it is DENIED, because the defendant has failed to meet the burden of establishing entitlement to
relief under MCR 6.508(D).
Wilder ■*•, J., did not participate because he was on the Court of Appeals panel.

Content Type: Cases
Terms:

APPENDIX:E
People v Washington, Mich App No#334514, Order denying application
for leave to appeal

Court of Appeals, State ofMichigan
ORDER
Kicstan frank Kelly
People of MI

tprtfelS Wfet

DocketNo.
LG No. -

GpithiaDianeStephens
Judges

12-006201-01-FC

DieCOurtorders tb^ the molion to wa^ tees is GRANTED and feesare WAIVED for
The Court orders that the delayed application for leave to appeal is DENIED because
defendant has failed to establish that the trial court erred in denying the motion for relief from judgment
TheCourt orders that the motion to remand pursuant to MCR 7.211(G)(1) is DENlED for
failure topersuade the Court of the necessity of a remand at this time.

;■

i

*;
j

A true copy entered and certified by Jerome W. ^nHrienfr^/CMefCJIei^.-on

Wrliwe
Date

APPENDIX:?
Opinion and Order denying state court motion for relief from
judgment (May 25, 2016)

STATE OF MICHIGAN
IN THE THIRD JUDICIAL CIRCUIT COURT
FOR THE COUNTY OF WAYNE

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Hon. Shannon N. Walker
Case# 12-06201-01
JOMIAH WASHINGTON;
Defendant.

OPINION
On April 18, 2013, following a jury trial, defendant, Jomiah Washington, was
convicted of first degree murder, contrary to MCL 750.316, dead bodies internment,
contrary to MCL 750.160, assault on a pregnant individual intentionally causing
miscarriage, still birth, or death, contrary to MCL 750.90b(a), and felony firearm,
contrary to MCL 750.227(b). On May 13, 2013, defendant was sentenced to concurrent
terms of "LIFE" for his murder conviction, time served on mutilation of a dead body,
eight (8) to fifteen (15) years for his assault conviction, and a consecutive two (2) year
sentence for felony firearm. On September 16, 2014, Michigan's Court of Appeals in an
unpublished opinion affirmed defendant's convictions and sentence.

People v.

Washington, Docket# 316428. On May 28, 2015, Michigan's Supreme Court denied
defendant's application for leave to appeal. "On order of the Court, the application for

leave to appeal the September 16, 2014 judgment of the Court of Appeals is considered,
and it is DENIED, because we are not persuaded that the questions presented should be
reviewed by this Court. The motion to remand is DENIED." People v Washington, 497
Mich 1027; 863 NW2d 58 (2015).

Defendant now brings a motion for relief from

judgment pursuant to MCR 6.500 et seq. The Prosecution has not filed a response.
Defendant alleges eight errors. Issue [1] Defendant argues that he was deprived
his sixth amendment right to a public pretrial hearing when the court removed
spectators from the courtroom in contravene with Waller v. Georgia.

[2] Defendant

alleges trial counsel was ineffective for failing to object to the pretrial courtroom
closure. 3] Defendant argues his conviction was predicated upon coerced testimony
[sic] police-induced, by threats made upon the prosecutor's key witness in violation of
the fourteenth amendment right to due process of law, which rendered the entire trial
proceedings fundamentally unfair. 4] Defendant argues his right to due process was
violated by the prosecution knowingly presenting perjured testimony. 5] Defendant
argues the trial court failed to instruct the jury on involuntary manslaughter where the
evidence supported such an instruction. 6] Defendant argues the prosecutor's star
witness testified that the shooting was accidental; [sic] there was insufficient evidence to
support the necessary elements of first degree murder.

7] Defendant argues his

conviction should be set aside where counsel was absent during a critical stage in
violation of his sixth and fourteenth amendment of the United States Constitution. 8]

2

Defendant complains he received ineffective assistance of appellate counsel on direct
appeal when counsel failed to raise obvious and meritorious issues and in the
alternative, counsel was ineffective for refusing to assist defendant with the trial
transcripts, which prevented defendant from filing a pro per standard 4 brief.
MCR 6.508(D) provides in relevant part:
The Defendant has the burden of establishing entitlement to the relief requested.
The court may not grant relief to the Defendant if the motion:
***

(2) Alleges grounds for relief which were decided against the Defendant in a
prior appeal or proceeding under this subchapter, unless the Defendant
establishes
(3) Alleges grounds for relief, except jurisdictional defects, which could have
been raised on appeal from the conviction and sentence or in a prior motion
under this subchapter, unless the Defendant demonstrates
(a) Good cause for failure to raise such grounds on prior appeals or in the prior
motion, and
(b) Actual prejudice from the alleged irregularities that support the claim for
relief. As used in this rule, "actual prejudice" means that
(i) In a conviction following a trial, but for the alleged error the Defendant would
have had a reasonably likely chance for an acquittal;
***

(iii) Or that the irregularity was so offensive to the maintenance of a sound
judicial process it should not be allowed to stand regardless of its effect on the
outcome of the case.
***

The court may waive the "good cause" requirement of sub-rule (D)(3)(a) if it
concludes that there is a significant possibility that the Defendant is innocent of the
crime.
Defendant argues he is entitled to a reversal of his conviction where he was
deprived of his sixth amendment right to a public pre-trial hearing when the court

3

removed spectators from the court room in contravene [sic] with Waller v. Georgia, 467
US 39, 46 (1984) and Pressley v. Georgia, 130 S Ct 721 (2010). In Waller, the Supreme
Court held that: (1) closure of entire suppression hearing was plainly unjustified and
violated defendant's Sixth Amendment public-trial guarantee, and (2) new trial would
be required only if new, public suppression hearing would result in suppression of
material evidence not suppressed at first trial, or in some other material change in
positions of the parties. Waller v Georgia, 467 US 39; 104 S Ct 2210; 81 L Ed 2d 31 (1984).
The Court explained:
1. Under the Sixth Amendment, any closure of a suppression hearing over
the objections of the accused must meet the following tests: the party
seeking to close the hearing must advance an overriding interest that is
likely to be prejudiced; the closure must be no broader than necessary to
protect that interest; the trial court must consider reasonable alternatives
to closing the hearing; and it must make findings adequate to support the
closure. Cf. Press-Enterprise Co. v. Superior Court of California, 464 US 501,
104 S Ct 819, 78 LEd2d 629. Pp. 2214-2216.
2. Under the above tests, the closure of the entire suppression hearing here
plainly was unjustified. The State's proffer was not specific as to whose
privacy interests might be infringed if the hearing were open to the public,
what portions of the wiretap tapes might infringe those interests, and
what portion of the evidence consisted of the tapes. As a result, the trial
court's findings were broad and general and did not purport to justify
closure of the entire hearing. And the court did not consider alternatives
to immediate closure of the hearing. Id at 2212.
In Presley v. Georgia, 130 S Ct 721, 724-725 (2010), the trial court before selecting a
jury in Presley's trial, noticed a lone courtroom observer. Id., at 270-271, 674 SE2d, at
910. The court explained that prospective jurors were about to enter and instructed the

4

man that he was not allowed in the courtroom and had to leave that floor of the
courthouse entirely. Id., at 271, 674 SE2d, at 910. The court then questioned the man and
learned he was Presley's uncle. Ibid. The court reiterated its instruction: "'well, you still
can’t sit out in the audience with the jurors. You know, most of the afternoon actually
we're going to be picking a jury. And we may have a couple of pre-trial matters, so
you're welcome to come in after we ... complete selecting the jury this afternoon. But,
otherwise, you would have to leave the sixth floor, because jurors will be all out in the
hallway in a few moments. That applies to everybody who's got a case. / // Ibid.
Presley's counsel objected to '"the exclusion of the public from the courtroom, /
but the court explained, "'[tjhere just isn't space for them to sit in the audience. /

//

//

Ibid.

When Presley's counsel requested "'some accommodation,' " the court explained its
ruling further: "'well, the uncle can certainly come back in once the trial starts. There’s
no, really no need for the uncle to be present during jury selection.... We have forty-two
(42) jurors coming up. Each of those rows will be occupied by jurors; and, defendant's
uncle cannot sit and intermingle with members of the jury panel.'But, when the trial
starts, the opening statements and other matters, he can certainly come back into the
courtroom. Presley v. Georgia, 130 S Ct 721, 722, 558 U.S. 209, 210 (2010).
In defendant's case, the district court judge closed the court room, after the
prosecutor's main witness, Amanda Baer, complained that she was being intimidated
by person(s) in the audience. Defendant argues the court failed to consider alternatives

5

to closing the court room pursuant to Waller, which violated his right to public hearing.
This Court disagrees. In Presley, anyone associated with the case or the defendant, were
expressly not allowed in the court room, and the trial judge closed the court room due
to lack of space for the public at large. In defendant's case, protection of a witness from
intimidation is clearly an overriding interest justifying the closure of the court room to
the public. A witness has the right to testify without fear of reprisals from people who
are attending the hearing in. support of the defendant. Waller, supra. As such, this Court
finds no violation of defendant's right to a public trial.
Defendant's arguments two through four (Ineffective Assistance of Trial
Counsel, admission of coerced testimony, and knowing placing on the record perjured
testimony) have all been raised in his appeal of right before Michigan's Court of
Appeals, which on September 16, 2014, affirmed defendant's convictions and sentence.
People v. Washington, Docket No. 316428, 2014 WL 4628883 (2014), app den 497 Mich
1027; 863 NW2d 58 (2015). An appellate court's decision is binding on courts of equal
or subordinate jurisdiction during subsequent proceedings in the same case. People v.
Peters, 205 Mich App 312; 517 NW2d 773 (1994); Supervisors v. Kennicott, 94 US 498, 499
(1877).

Further, MCR 6.508 (D)(2), states, "the court may not grant relief to the

Defendant if the motion alleges grounds for relief, which were decided against the
Defendant in a prior appeal." As Defendant has already argued these same issues in his
appeal as of right, he is precluded from re-litigating those issues here.

6

Defendant's next argument is that his due process rights were violated when the
trial court failed to instruct the jury on involuntary manslaughter, whereas in the
defendant's opinion the evidence supported such an instruction. Defendant argues
there was no direct evidence linking him to the death of the decedent, other than
testimony from Amanda Baer, that defendant admitted to shooting a girl accidentally.
Defendant posits that the circumstantial evidence presented along with the testimony of
Baer points to an accidental shooting, rather than premeditated murder. In People v.
Cornell, 466 Mich. 335, 646 N.W.2d 127 (2002), the Court considered whether necessarily
included lesser offenses and cognate lesser included offenses were "inferior" offenses
under MCL § 768.32. In consideration of this issue, Michigan appellate courts examined
the meaning of the word "inferior":
"We believe that the word 'inferior' in [MCL 768.32] does not refer to inferiority in the
penalty associated with the offense, but, rather, to the absence of an element that
distinguishes the charged offense from the lesser offense. The controlling factor is
whether the lesser offense can be proved by the same facts that are used to establish the
charged offense." [Cornell, supra at 354, 646 NW2d 127, quoting People v. Torres (On
Remand), 222 Mich App 411,419-420, 564 NW2d 149 (1997) ].
Moving on, manslaughter is defined as:
[T]he act of killing, though intentional, [is] committed under the influence
of passion or in heat of blood, produced by an adequate or reasonable
provocation, and before a reasonable time has elapsed for the blood to
cool and reason to resume its habitual control, and is the result of the
temporary excitement, by which the control of reason was disturbed,
rather than of any wickedness of heart or cruelty or recklessness of
disposition....[Maher v. People, 10 Mich. 212, 219 (1862).]

7

A defendant properly convicted of voluntary manslaughter is a person who has acted
out of a temporary excitement induced by an adequate provocation and not from the
deliberation and reflection that marks the crime of murder."). Thus, to show voluntary
manslaughter, one must show that the defendant killed in the heat of passion, the
passion was caused by adequate provocation, and there was not a lapse of time during
which a reasonable person could .control his passions. People v. Pouncey, 437 Mich. 382,
389, 471 N.W.2d 346 (1991). Significantly/provocation is not an element of voluntary
manslaughter. People v. Moore, 189 Mich App 315, 320, 472 N.W.2d 1 (1991). Rather,
provocation is the circumstance that negates the presence of malice. An examination of
the historical development of homicide law informs this Court that manslaughter is a
necessarily included lesser offense of murder because the elements of manslaughter are
included in the offense of murder. People v Mendoza, 468 Mich 527, 535-36; 664 NW2d
685,690 (2003)
Involuntary manslaughter is the unintentional killing of another, without
malice, during the commission of an unlawful act not amounting to a
felony and not naturally tending to cause great bodily harm; or during the
commission of some lawful act, negligently performed; or in the negligent
omission to perform a legal duty. People v. Heflin, 434 Mich. 482, 507-508,
456 NW2d 10 (1990).

Pertaining to the legal definition of murder, the phrase "malice aforethought"
has evolved over the centuries. During the late fifteenth and early sixteenth centuries,
"malice aforethought" meant that one possessed intent to kill well in advance of the act

8

itself. Id. at 10. Notably, the emphasis was on "aforethought," so that the critical
difference between capital and noncapital murder was the passage of time between the
initial formulation of the intent to kill and the act itself. Moylan, Criminal Homicide
Law (Maryland Institute for Continuing Professional Education of Lawyers), ch. 2, § 2.7.
The term "malice" alone had little significance beyond meaning intent, to commit an
unjustified and inexcusable killing. Id. The purpose of the "malice aforethought"
element was to distinguish between deliberate, calculated homicides and homicides
committed in the heat of passion. Thus, this Court concludes, the elements of voluntary
manslaughter are included in murder, with murder possessing the single additional
element of malice. Mendoza, supra.
[Pjains should be taken not to define [the mens rea required for
involuntary manslaughter] in terms of a wanton and wilful disregard of a
harmful consequence known to be likely to result, because such a state of
mind goes beyond negligence and comes under the head of malice. Id.
Unlike murder, involuntary manslaughter contemplates an unintended result
and thus requires something less than intent to do great bodily harm, intent to kill, or
the wanton and wilful disregard of its natural consequences. [Citations omitted;
emphasis added.] United States v. Browner, 889 F2d 549, 553 (1989), stating, "In contrast
to the case of voluntary manslaughter ... the absence of malice in involuntary
manslaughter arises not because of provocation induced passion, but rather because the
offender's mental state is not sufficiently culpable to reach the traditional malice
requirements."

Id.

Thus, this Court concludes that the elements of involuntary
9

manslaughter are included in the offense of murder because involuntary
manslaughter's mens rea is included in murder's greater mens rea.
Having concluded that manslaughter is an inferior offense of murder because it
is a necessarily included lesser offense, we now consider whether the trial court erred in
refusing to give an involuntary-manslaughter instruction.

An inferior-offense

instruction is appropriate only -when a rational view of the ’ evidence supports a
conviction for the lesser offense. Cornell, supra at 357, 646 NW2d 127. In this case, the
trial court concluded there was not sufficient evidence to support an involuntarymanslaughter instruction. Manslaughter, in both its forms, is an inferior offense of
murder within the meaning of MCL § 768.32. Therefore, an instruction is warranted
when a rational view of the evidence would support it. In defendant's scenario, there
was testimony that defendant had on a number of occasions verbally threatened to
stomp the baby out of the decedent, if she did not have an abortion; there was also
testimony from a witness that defendant had previously aggressively choked the
decedent, in a domestic violence incident, leaving heavy bruising on her neck. Thus, it
is unlikely defendant unintentionally tried to harm the decedent. Therefore, this Court
concludes a rational view of the evidence did not support an involuntary-manslaughter
instruction. Therefore, the trial court did not err when it refused to give the instruction.
Mendoza, supra at 548.

10

Next defendant argues that there was insufficient evidence to support the
necessary elements of first degree murder. This Court disagrees for the reasons stated
in the previous argument, that defendant's conduct and the death of the decedent did
not meet the legal definition of involuntary manslaughter, as defendant had
premeditated intentions of seriously harming the decedent prior to her shooting death
in 2011.
Next defendant argues he was denied trial counsel at a critical stage in violation
of his sixth and fourteenth amendment rights. Defendant complains that he was not
furnished with an attorney during his initial arraignment, which is an arraignment on
the warrant or complaint. Defendant avers that the denial of counsel at the initial
arraignment is clearly at odds with transparent direction from the Supreme Court, and
other adjoining counties whom regularly appoint counsel at the initial arraignment.
However, defendant's suspicions are misplaced. MCR 6.104 in pertinent part reads:
The court at the [initial] arraignment must
(1) inform the accused of the nature of the offense charged, and its
maximum possible prison sentence and any mandatory minimum
sentence required by law;
(2) if the accused is not represented by a lawyer at the arraignment, advise
the accused that
(a) the accused has a right to remain silent,
(b) anything the accused says orally or in writing can be used against the
accused in court,
(c) the accused has a right to have a lawyer present during any
questioning consented to, and
(d) if the accused does not have the money to hire a lawyer, the court will
appoint a lawyer for the accused;

11

(3) advise the accused of the right to a lawyer at all subsequent court
proceedings and, if appropriate, appoint a lawyer. MCR 6.104(E).
Thus, the initial arraignment is not considered a critical stage where legal
representation is required.1 The court rules are clear that a defendant may or may not
be represented by counsel, and have laid procedures to deal with either scenario.
Therefore, defendant's argument must fail.
Defendant's final argument is that he received ineffective assistance of appellate
counsel on direct appeal when counsel failed to raise obvious and meritorious issues
and refused to provide defendant with transcripts, which defendant claims prevented
him from filing a pro per standard-4 brief. However, for Defendant to obtain post­
conviction relief for ineffective assistance of appellate counsel based upon counsel's
failure to present all possible claims on appeal; he must show appellate counsel's
representation fell below an objective standard of reasonableness and that appellate
counsel's representation was constitutionally deficient.
In order to establish a claim of ineffective assistance of appellate counsel,
Defendant must show that appellate counsel was ineffective for failing to raise an issue
on appeal. Defendant must overcome the presumption that the failure to raise an issue
was sound appellate strategy and must establish that the deficiency was prejudicial.
People v. Reed, 198 Mich App 639, 646-647; 499 NW2d 441 (1993), and aff'd 449 Mich 375;
535 NW2d 496 (1995). Here, Defendant has not done so. As this Court did not find
MCL 764.13 and 764.26.

12

merit in any of these issues appellate counsel decided not to pursue, Defendant cannot
show he was prejudiced by appellate counsel's failure to raise any of the issues
contained in this motion. MCR 6.508(D)(3). Under the deferential standard of review,
appellate counsel's decision to winnow out weaker arguments in pursuit of those that
may be more likely to prevail is not evidence of ineffective assistance of counsel. Reed,
supra at 391. Moreover, counsel's failure to assert all arguable claims is not sufficient to
overcome the presumption that counsel functioned as a reasonable appellate attorney.
Thus, Defendant's ineffective assistance of counsel argument must fail.
Therefore, this Court finds defendant has not demonstrated both good cause and
actual prejudice for the reasons stated above; and as such, defendant's arguments fail to
meet the heavy burden under MCR 6.508 (D)(3)(a). Thus, this Court holds defendant's
request for a new trial, or evidentiary hearing, based upon his motion for relief from
judgment are DENIED.

Dated:

MM 1 5 2016

Circuit Court Judge

13

STATE OF MICHIGAN
IN THE THIRD JUDICIAL CIRCUIT COURT
FOR THE COUNTY OF WAYNE

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Hon. Shannon N. Walker
Case# 12-06201-01
JOMIAH WASHINGTON,
■*

Defendant.

ORDER
At a session of this Court held in the Frank
2 5 2016

Murphy Hall of Justice on____________

JUDGE SHANNON NICOL WALKER
PRESENT: HON.
Circuit Court Judge
In the above-entitled cause, for the reasons set forth in the foregoing Opinion;
IT IS HEREBY ORDERED that Defendant's Motion for Relief from Judgment is
DENIED.

Circuit Court Judge
PROOF OF SERVICE
I certify that a copy of the above instrument was served upon the attorneys of record and/or self-represented parties in
the aboie case by mailmgit to the attprneys^nd/er parties at the business address as disclosed by the pleadings Of
recorcffwith prevaid vostabe on
f) ''cX O l (/

Name

14

APPENDIX:G
People v Washington, 497 Mich 1027 (2015), Order denying the
application for leave to appeal

Order

Michigan Supreme Court
Lansing, Michigan

May 28, 2015

Robert P. Young, Jr.,
Chief Justice

150321 & (61)

Stephen J. Markman
Mary Beth Kelly
Brian K. Zahra
Bridget M. McCormack
David F. Viviano
Richard H. Bernstein,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

Justices

SC:150321
COA: 316428
Wayne CC: 12-006201-FC

JOMIAH WASHINGTON,
_ _ Defendant-Appellant-

_

On order of the Court, the application for leave to appeal the September 16, 2014
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court. The motion to
remand is DENIED.

0/

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.

&

May 28,2015
t0518

Clerk

APPENDIX:H
People v Washington, 2014 Mich App LEXIS 1726, unpublished opinion
from the Michigan Court of Appeals (September 16, 2014)

STATE OF MICHIGAN
COURT OF APPEALS

UNPUBLISHED
September 16,2014

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

No. 316428
Wayne Circuit Court
LC No. 12-006201-FC

v
JOMLAH WASHINGTON,
Defendant-Appellant.
Before: Meter, P.J., and K. F. Kelly and M. J. Kelly, JJ.
Per Curiam.

Defendant, Jomiah Washington, appeals by right his juiy convictions of first-degree
murder, MCL 750.316, assault of a pregnant individual intentionally causing miscarriage,
stillbirth, or death, MCL 750.90b(a), mutilation of a dead body, MCL 750.160, and possession of
a firearm during the commission of a felony (felony-firearm), MCL 750.227b. The trial court
sentenced Washington to serve life in prison without parole for the first-degree murder
conviction, 8 to 15 years in prison for the assault of a pregnant individual intentionally causing
miscarriage, stillbirth, or death conviction, time served for the mutilation of a dead body
conviction, and 2 years in prison for the felony-firearm conviction. Because we conclude there
were no errors warranting relief, we affirm.
Washington argues that the trial court should have excluded references to Amanda Baer’s
investigative subpoena testimony when it read Baer’s preliminary examination testimony into
evidence at trial under MRE 804(b)(1). “To preserve an evidentiary issue for review, a party
opposing the admission of evidence must object at trial and specify the same ground for
objection that it asserts on appeal.” People v Aldrich, 246 Mich App 101, 113; 631 NW2d 67
(2001). At trial, Washington’s lawyer objected to the admission of Baer’s preliminary
examination testimony. After the trial court ruled that the testimony was admissible under MRE
804(b)(1), and before Baer’s preliminary examination testimony was read into evidence, the
parties and the trial court discussed possible inadmissible portions of the preliminary
examination transcript. Washington’s lawyer did not object to the preliminary examination
testimony in which the prosecutor impeached Baer with her investigative subpoena testimony.
On appeal, Washington argues that the trial court should have excluded references to Baer’s
investigative subpoena testimony. Given that Washington has asserted a different ground for
objection on appeal than he did at trial, the issue is unpreserved for appellate review. Id.

-1-

This Court reviews unpreserved evidentiary issues for plain error affecting the
defendant’s substantial rights. People v Walker (On Remand), 273 Mich App 56, 66; 728 NW2d
902 (2006). To avoid forfeiture under the plain error rule, three requirements must be met: error
must have occurred, the error was clear or obvious, and the error affected the defendant’s
substantial rights. Id. The third requirement generally requires a showing that the error affected
the outcome of the lower court proceedings. Id.
Hearsay is “a statement, other than the one made by the declarant while testifying at the
trial or hearing, offered in evidence to prove the truth of the matter asserted.” MRE 801(c).
Hearsay is generally inadmissible unless it comes within an exception to the hearsay rule.
People v Dendel, 289 Mich App 445, 452; 797 NW2d 645 (2010). MRE 804(b)(1) provides that
the following is not excluded by the hearsay rule if the declarant is unavailable as a witness:
Testimony given as a witness at another hearing of the same or a different
proceeding, if the party against whom the testimony is now offered, or, in a civil
action or proceeding, a predecessor in interest, had an opportunity and similar
motive to develop the testimony by direct, cross, or redirect examination.
The trial court found, and Washington does not dispute, that Baer was unavailable as a
witness for purposes of the former testimony exception because she invoked her Fifth
Amendment privilege against self-incrimination. See People v Meredith, 459 Mich 62, 65-66;
586 NW2d 538 (1998). By the time of the preliminary examination, Baer had become
uncooperative and it was necessary for the prosecution to impeach Baer using her prior
testimony at the investigative hearing. Baer’s investigative subpoena testimony was given under
oath and she was subject to cross-examination at the preliminary examination. Moreover,
Washington’s lawyer plainly understood the importance of Baer’s testimony from the prior
hearing and had the opportunity to clarify the nature of any discrepancies between Baer’s
testimony at the investigative hearing and her testimony at the preliminary examination. Indeed,
Washington’s lawyer got Baer to testify that she lied at the investigative hearing because officers
threatened to take her children if she did not implicate Washington. He also got her to testify
that she told the officers the truth prior to that hearing. Thus, it is evident from a fair reading of
the preliminary examination that Washington’s lawyer had an opportunity and similar motivation
to develop Baer’s testimony at the preliminary examination. Id. at 66-67. Therefore, the
references to Baer’s investigative subpoena testimony, which were used to impeach her at the
preliminary examination, were admissible at the preliminary examination and later at trial. MRE
801(d)(1)(A); MRE 804(b)(1). Consequently, on this record, we cannot agree that the trial court
plainly erred when it failed to sua sponte. exclude the references within Baer’s preliminary
examination testimony to her testimony from the investigative hearing.
Washington’s alternative argument that the trial court should have admitted the entire
transcript of Baer’s investigative subpoena testimony is misguided. The trial court properly
concluded that Baer’s investigative subpoena testimony transcript was inadmissible at trial
because Washington’s interests were not represented at the investigative subpoena hearing.
Therefore, admitting the transcript of Baer’s investigative subpoena testimony would have
introduced inadmissible hearsay not within an exception. Dendel, 289 Mich App at 452.

-2-

Washington also argues his trial lawyer was ineffective. Where there has been no
evidentiary hearing, as here, this Court reviews a claim of ineffective assistance of counsel for
errors apparent on the record. People vArmisted, 295 Mich App 32, 46; 811 NW2d 47 (2011).
“To establish a claim of ineffective assistance of counsel, the defendant must show that counsel’s
representation fell below an objective standard of reasonableness under prevailing professional
norms and that there is a reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.” People v Gioglio (On Remand), 296 Mich
App 12,22; 815 NW2d 589 (2012) (quotation marks and citation omitted), lv den in relevant part
by 493 Mich 864.
Washington claims that his trial lawyer was ineffective for failing to obtain copies of the
interviews by police officers with Baer so that he could properly cross-examine her at the
preliminary examination. However, Washington’s citation to the record in his brief on appeal
does not support his assertion that his lawyer failed to obtain copies of the interviews.
Washington has the burden to establish' the factual'predicate-for-his ineffective assistance of
counsel claim and may not leave it to this Court to search for the factual basis to sustain or reject
his position. People v Hoag, 460 Mich 1, 6; 594 NW2d 57 (1999); People v Petri, 279 Mich
App 407, 413; 760 NW2d 882 (2008). Washington has not shown that his trial lawyer engaged
in an act or omission that fell below an objective standard of reasonableness under prevailing
professional norms.
There were no errors warranting relief.
Affirmed.

/s/ Patrick M. Meter
/s/ Kirsten Frank Kelly
/s/ Michael J. Kelly

-3-

APPENDIX;!
State Court Register Of Actions

Third Judicial Circuit of Michigan

Register of Actions
Case No. 12-006201-01-FC
State of Michigan v Jomiah Washington

§
§
§
§
§
§
§

Location:
Judicial Officer:
Filed on:
Case Number History:

Criminal Division
Walker, Shannon
06/25/2012
11060765-01
11713016-01
Case Tracking Number: 11713016-01
CRISNET/IncidentNo.: 1106020191

Case Information
Offense
Deg
1. Homicide - Murder First Degree - Premeditated
Arrest:
06/02/2011
DPHOM - Detroit Pd Homicide
2. Homicide - Wilful Killing of Unborn Quick Child
Arrest:
06/02/2011
DPHOM - Detroit Pd Homicide
3. Dead Bodies - Disinterment & Mutilation
Arrest:
06/02/2011
DPHOM - Detroit Pd Homicide
4. Weaporis'FelOny Fireantr
Arrest:
06/02/2011
DPHOM - Detroit Pd Homicide
5. Assault - Pregnant Individual Causingmiscarri age/stillbirth

Date
Case Type: Capital Felonies
06/02/2011
Case
05/25/2016 Final
Status:
06/02/2011
06/02/2011

Case Flags: Case has PDF Electronic
Transcripts

-06/02/2011
09/21/2012

Statistical Closures
04/18/2013
Jury Verdict
Warrants
Failure To Appear - Washington, Jomiah (Judicial Officer: Lockhart, Steve)
06/30/2011
Warrant Cancelled/Recalled (LC)
Fine:
$0
Bond:
$0

Party Information
State of Michigan

Defendant

Washington, Jomiah
Black Male
Other Agency Number: 679385 Detroit Police Identification Number

Appellate
Attorney

Rust, Daniel J.

Events & Orders of the Court

Date
.

Lead Attorneys
Weingarden, Lora
(313) 224-8081(W)

Plaintiff

06/24/2011

Recommendation for Warrant

06/24/2011

Warrant Signed

06/30/2011

Arraignment on Warrant (Judicial Officer: Lockhart, Steve)
Defendant Stands Mute; Plea OfNot Guilty Entered By Court

06/30/2011

Plea (Judicial Officer: Lockhart, Steve)
1. Homicide - Murder First Degree - Premeditated
Defendant Stand Mute: Plea of Not Guilty Entered by Court

06/30/2011

Plea (Judicial Officer: Lockhart, Steve)
2. Homicide - Wilful Killing of Unborn Quick Child
Defendant Stand Mute: Plea of Not Guilty Entered by Court

PAGE 1 OF 9

Cripps, David R.
Court Appointed
(313) 963-0210(W)

Index

Printed on 06/09/2016 at 12:20 PM

Third Judicial Circuit of Michigan

Register of Actions
Case No. 12-006201-01-FC
06/30/2011

Plea (Judicial Officer: Lockhart, Steve)
3. Dead Bodies - Disinterment & Mutilation
Defendant Stand Mute: Plea of Not Guilty Entered by Court

06/30/2011

Plea (Judicial Officer: Lockhart, Steve)
4. Weapons Felony Firearm
Defendant Stand Mute: Plea of Not Guilty Entered by Court

06/30/2011

Interim Condition for Washington, Jomiah (Judicial Officer: Lockhart, Steve)
- Remand
$0.00

07/12/2011

CANCELED Preliminary Examination
Adjourned:Referred to Clinic for Report

07/12/2011

Motion to Assign Counsel Filed/Signed

07/12/2011

Order for a Competency Evaluation

07/12/2011

Filed

07/12/2011

Refer to Clinic for a Report

07/12/2011

Filed

09/08/2011

CANCELED Competency Hearing
Adjourned:At The Request Of The Court

10/25/2011

Competency Hearing (Judicial Officer: Carter, Ruth)
Found Competent

10/25/2011

Motion to Assign Counsel Filed/Signed

10/25/2011

Motion for a Continuance Filed/Signed

10/25/2011

Defendant Competent to Stand Trial

10/25/2011

Filed

12/09/2011

CANCELED Preliminary Examination
Adjourned.At The Request Of The Court

01/12/2012

CANCELED Preliminary Examination
Adjourned at the Request ofthe Defense

01/12/2012

Appearances by a Retained Attorney Filed

01/12/2012

Motion for a Continuance Filed/Signed

02/14/2012

CANCELED Preliminary Examination
Adjourned at the Request ofthe Defense

04/24/2012

CANCELED Preliminary Examination

PAGE 2 OF 9

Printed on 06/09/2016 at 12:20 PM

Third Judicial Circuit of Michigan

Register of Actions
Case No. 12-006201-01-FC
Adjourned at the Request ofthe Defense

05/01/2012

CANCELED Preliminary Examination
Adjourned at the Request ofthe Defense

05/30/2012

CANCELED Preliminary Examination
Adjourned at the Request ofthe Defense

06/25/2012

Preliminary Examination (Judicial Officer: Carter, Ruth)
Held: Bound Over

06/25/2012

Motion to Assign Counsel Filed/Signed

-06/2-5/2012
06/25/2012

Bound OverOrder For Production Of Exam Transcript Signed and Filed
Yolanda Carter;06-25-l2;0+1;

07/05/2012

Stenographers Certificate Filed
Yolanda Carter;

06/26/2013

fB Notice of Transcript Filed

26 pages

Vol./Book 111
pages

Glenda Merritt; 5/13/13 SE**
07/02/2012

Arraignment On Information (Judicial Officer: McCree, Wade H.)
Resource: Court Rpt/Rec 6472 Smith, Jacquetta
Resource: Courtroom Clerk C5915 Covington, Darlynn
Held

07/02/2012

Disposition Conference (Judicial Officer: McCree, Wade H.)
Resource: Court Rpt/Rec 6472 Smith, Jacquetta
Resource: Courtroom Clerk C5915 Covington, Darlynn
Held

07/02/2012

Scheduled AOI

07/16/2012

Calendar Conference (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn

07/06/2012

Reset by Court to 07/16/2012

Held
07/16/2012

Order For Criminal Responsibility (Judicial Officer: Jones, Vera Massey )

09/14/2012

Final Conference (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn
Held

09/21/2012

Motion Hearing (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C6005 Schultz, Roberta
Held

PAGE 3 OF 9

Printed on 06/09/2016 at 12:20 PM

Third Judicial Circuit of Michigan

Register of Actions
Case No. 12-006201-01-FC
09/21/2012

Motion To Quash Information (Judicial Officer: Jones, Vera Massey )
H/DS/F

09/21/2012

Heard And Denied - Order Signed and Filed (Judicial Officer: Jones, Vera Massey)
Defendant's Motion To Quash Information

09/21/2012

Motion (Judicial Officer: Jones, Vera Massey )
People's Motion To Strike Count 2 and Add New Count: 750.90BA-Assault-Pregnant
Individual-Ausing Miscarriage/Still Birth H/G

09/21/2012

Heard And Granted - Order Signed and Filed (Judicial Officer: Jones, Vera Massey)
People's Motion To Strike Count 2 and Add New Count: 750.90BA-Assault-Pregnant
Individual-Ausing Miscarriage/Still Birth

09/21/2012

Disposition (Judicial Officer: Jones, Vera Massey)
2. Homicide - Wilful Killing of Unborn Quick Child
Dismissed

09/27/2012

Order (Judicial Officer: Jones, Vera Massey )
For Appointment ofIndependent Expert for Criminal Responsibility Evaluation Signed/Filed

10/15/2012

Report Received
As to Criminal Responsibility

10/19/2012

Final Conference (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn
Minutes Comment: S/IAPA Rebecca Camargo (Clerk: Craig, M Date: 10-19-12)

09/14/2012

Reset by Court to 10/19/2012

Adjourned at the Request ofthe Prosecutor
10/26/2012

Motion
Defendant's Response to Prosecution's Motion in Limine

11/01/2012

Final Conference (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn

11/02/2012

Reset by Court to 11/01/2012

Held
11/01/2012

Motion (Judicial Officer: Jones, Vera Massey)
To admit photograph-Granted

11/01/2012

Motion (Judicial Officer: Jones, Vera Massey )
To admit statement ofcomplainant to establish motive GRANTED

12/14/2012

Motion Hearing (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn

12/17/2012

Reset by Court to 12/14/2012

Adjourned at the Request ofthe Defense
12/17/2012

Order (Judicial Officer: Jones, Vera Massey)
For privated investigator at public expense; Signed/Filed

01/11/2013

Motion Hearing (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C6011 Holder, Yolanda

PAGE 4 OF 9

Printed on 06/09/2016 at 12:20 PM

Third Judicial Circuit of Michigan

Register of Actions
Case No. 12-00620I-01-FC
Held
01/11/2013

Heard And Granted - Order Signed and Filed (Judicial Officer: Jones, Vera Massey)
Motion to admit other acts: Gun and prior domestic violence

01/11/2013

Heard And Denied - Order Signed and Filed (Judicial Officer: Jones, Vera Massey)
Mo. to Admit Voice Identification Testimony -Can renew

04/01/2013

04/01/2013

Jury Trial (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn
In Progress
Motion (Judicial Officer: Jones, Vera Massey)
To Allow use ofthe Examination Transcript ofAmanda Baer ifshe refuses to testify.. Granted

04/02/2013

Jiiryjria! in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn
In Progress

04/03/2013

Jury Trial in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3326 Bauer, Becky
Resource: Courtroom Clerk C5929 Craig, Marilyn
In Progress

04/04/2013

Jury Trial in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn
In Progress

04/10/2013

Jury Trial in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn
In Progress

04/11/2013

Jury Trial in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5919 Banks, Barbara
Held

04/12/2013

Jury Trial in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5919 Banks, Barbara
Held

04/15/2013

Jury Trial in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn
In Progress

04/15/2013

04/16/2013

Motion For A Directed Verdict Of Not Guilty (Judicial Officer: Jones, Vera Massey)
DENIED
Jury Trial in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn

PAGE 5 OF 9

Printed on 06/09/2016 at 12:20 PM

Third Judicial Circuit of Michigan

Register of Actions
Case No. 12-006201-01-FC
In Progress
04/17/2013

Jury Trial in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn
In Progress

04/18/2013

Jury Trial in Progress (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 3521 Payne, Janice
Resource: Courtroom Clerk C5929 Craig, Marilyn
Held

04/18/2013

Found Guilty By Jury (Judicial Officer: Jones, Vera Massey)

04/18/2013

Refer to Probation For Pre-Sentence Report (Judicial Officer: Jones, Vera Massey )

04/18/2013

05/13/2013

' 'Disposition (Judicial Officer: -Jones, Vera Massey)
1. Homicide - Murder First Degree - Premeditated
Found Guilty by Juiy
3. Dead Bodies - Disinterment & Mutilation
Found Guilty by Jury
4. Weapons Felony Firearm
Found Guilty by Jury
5. Assault - Pregnant Individual - Causingmiscarriage/stillbirth
Found Guilty by Jury
Sentencing (Judicial Officer: Jones, Vera Massey)
Resource: Court Rpt/Rec 6566 Merritt, Glenda
Resource: Courtroom Clerk C5929 Craig, Marilyn
Sentenced

05/13/2013

Sentenced to Prison (Judicial Officer: Jones, Vera Massey )

05/13/2013

Sentence (Judicial Officer: Jones, Vera Massey)
1. Homicide - Murder First Degree - Premeditated
Prison Sentence
Fee Totals:
- Crime Victims
130.00
Fee - (FEL)
- State Minimum
272.00
Cost (FEL)
Court Costs
600.00
1,002.00
Fee Totals $
State Confinement:
Agency: Michigan Department of Corrections
Effective 05/13/2013
Term: Natural Life
Consecutive, Count 4
3. Dead Bodies - Disinterment & Mutilation
Prison Sentence
State Confinement:
Agency: Michigan Department of Corrections
Effective 05/13/2013
Comment: TIME SERVED
4. Weapons Felony Firearm
Prison Sentence
State Confinement:
Agency: Michigan Department of Corrections
Effective 05/13/2013
Term: 2 Yrto2 Yr

PAGE 6 OF 9

Printed on 06/09/2016 at 12:20 PM

Third Judicial Circuit of Michigan

Register of Actions
Case NO. 12-006201-01-FC
Credit for Time Served: 684 Days
5. Assault - Pregnant Individual - Causingmiscarriage/stillbirth
Prison Sentence
SGL Range (Minimum 50 Months, Maximum 100 Months)
State Confinement:
Agency: Michigan Department of Corrections
Effective 05/13/2013
Term: 8 Yr to 15 Yr
05/23/2013

Order For Production Of Trial Transcript
Janice Payne JT 4/1-4,10-12,15-18/2013

05/23/2013

Stenographer Certificate Required

05/31/2013

Stenographers Certificate Filed
Janice Payne JT 4/1-2,4,10-12,15-18/2013 not the reporter for 4/3/2013

07/09/2013

08/20/2013

Stenographers Certificate Filed
Janice Payne JT 4/1-2,4,10-12,15-18/2013 not the reporter for 4/3/2013
Vol./Book 3 507
pages

i§5 Notice of Transcript Filed
Janice Payne, Norman Barker; JT4/11/13, 4/12/13, 4/15/13**

09/04/2013

Vol./Book 2 28
pages

§1 Notice of Transcript Filed
Janice Payne; JT4/17/13, 4/18/13**

09/05/2013

Vol./Book 1 88
pages

I® Notice of Transcript Filed
Janice Payne; 4/4/13 JT Transc**

09/20/2013

Vol./Book 1 281
pages

I® Notice of Transcript Filed
Janice Payne; 4/1/13 JT**

09/23/2013

Vol./Book 1 259
pages

I® Notice of Transcript Filed
Janice Payne; 4/2/13 JT**

10/04/2013

Vol./Book 1 219
pages

IS Notice of Transcript Filed
Jancice Payne; 4/10/13 JT**

10/08/2013

VolJBook 1 101
pages

® Notice of Transcript Filed
Janice Payne; 4/16/13 WT**

05/23/2013

Order For Production Of Sentencing Transcript
Glenda Merritt Se 5/13/2013

05/23/2013

Stenographer Certificate Required

05/30/2013

Stenographers Certificate Filed
Glenda Merritt Se 5/13/2013

06/24/2013

05/23/2013

Stenographers Certificate Filed
Glenda Merritt Se 5/13/2013
Appointment for Claim of Appeal (Circuit)

PAGE 7 OF 9

Printed on 06/09/2016 at 12:20 PM

Third Judicial Circuit of Michigan

Register of Actions
Case No. 12-006201-01-FC
Linda Ashford appointed
06/03/2013

Vol./Book 1194
pages

Order For Production Of Trial Transcript
Becky Bauer JT 4/3/2013

06/03/2013

Stenographer Certificate Required

06/14/2013

Stenographers Certificate Filed
Becky Bauer JT 4/3/2013

08/28/2013

||§ Notice of Transcript Filed

Vol./Book 1194
pages

Becky Bauer; 4/3/13 JT**
06/20/2013

Attorney Removed - New Attorney Assigned
Linda Ashford removed Daniel Rust appointed

07/09/2013

Order For Production Of Transcript
Janice Payne MO 9/21/2012, 11/1/2012, 1/11/2013

07/09/2013

Stenographer Certificate Required

07/16/2013

Stenographers Certificate Filed
Janice Payne MO 9/21/2012, 11/1/2012,1/11/2013

09/17/2013

Vol./Book 3 52
pages

151 Notice of Transcript Filed
Janice Payne MO 9/21/2012, 11/1/2012,1/11/2013**

09/16/2014

Appellate Court Decision; Affirms Lower Court

06/05/2015

Application For Leave To Appeal (Circuit)
Denied.

03/11/2016

Motion
MRJ Rec'd and Forwarded

03/11/2016

Motion For Relief From Judgment
in pro per.

05/25/2016

-Post Conviction (Judicial Officer: Walker, Shannon)
Resource: Court Rpt/Rec 01 Not On, Record
Resource: Courtroom Clerk 6034C Reed, Alysia
Review status ofMRJfiled in. Minutes Comment: No parties present - paper hearing only
(Clerk: Reed A Date: 06-01-16)

06/10/2016

Reset by Court to 05/25/2016

Held
05/25/2016

Order Denying Motion for Relief from Judgment Sgned & Filed (Judicial Officer: Walker,
Shannon)

Financial Information

Date
Defendant Washington, Jomiah
Total Charges
Total Payments and Credits
Balance Due as of 6/9/2016

1,122.00
0.00
1,122.00

PAGE 8 OF 9

Printed on 06/09/2016 at 12:20 PM

Third Judicial Circuit of Michigan

Register of Actions
Case NO. 12-006201-01-FC
05/14/2013
07/10/2013

Defendant Washington, Jomiah
Defendant Washington, Jomiah

Charge
Charge

PAGE 9 OF 9

1,002.00

120.00

Printed on 06/09/2016 at 12:20 PM

APPENDIX?l
Ex c erpte d Trial
Testimony Of Amanda Baer
April 10, 2 01 3
Pages 98-11q

MR. CRIPPS:

1
2

BY MR. CRIPPS:

3

Q.

4

Thank you.

Did you tell Amanda Baer that if she didn't

All right.

come up with some type of story you were going to take

5

’ her kids, put her in for accessory to murder?

6

A.

No, sir.

7

Q.

So, if she said that, that was a lie?

8

A.

Absolutely.

9

Q.

Did you tell Amanda Baer that there are certain things

10

that she had to say to get out of her situation?

11

A.

I did not.

12

Q-

So, if she said that, that would be a lie?

13

A.

Yes, sir.

14

Q-

Did you tell Amanda Baer --

15

THE COURT:

16

I might suggest that the defendant

might want to sit back in his seat.

17

MR. CRIPPS:

18

THE COURT:

19

Thank you, your Honor.
Sometimes things have to go on the

record.

20

Go ahead.

21

MR. CRIPPS:

22

BY MR. CRIPPS:

23

Q.

Yes, your Honor.

Did you tell Amanda Baer to say -- to tell you -- did you

24

tell Amanda Baer to make up certain things regarding

25

accusations against Mr. Washington?

150

1

A.

One more time.

2

Q,

Did you tell Amanda Baer that she had to make up certain
accusations against Jomiah Washington?

3
4

A.

No, sir.

5

Q.

Did you tell Amanda Baer that she had to say he looked

6

out the window to see if anybody was looking and you

7

wrapped her up in a sheet and put her in his trunk?

8

Did you tell her to say that?

9

A.

No, sir.

10

Q-

So, when Amanda Baer testified at the Exam under oath

11

that she only said that because Sergeant Bowser told me

12

to, would that be a lie then?

13

A.

That would be a lie.

14

Q.

In relation to the information that you got from Amanda

15

Baer that we heard about today, did you tell her that

16

when the prosecutor asked her certain things that she had

17

to say certain things at that Investigative Subpoena

18

Hearing?

19

A.

I did not say that, no.

20

Q.

So, if Amanda Baer said that at the Preliminary

21

Examination that would be a lie?

22

A.

Yes, sir.

23

Q.

Did you at another time tell Amanda Baer that if she

24

didn't testify at the Investigative Subpoena Hearing the

25

way that you wanted her to that she would be an accessory

151

1

to murder, go to prison for 25 years, have her kids taken

2

away, have her baby in jail, and never see her daughter

3

again?

4

A.

No, sir.

5

Q-

So, when she testified that way in December 2012 at the
Preliminary Examination that would have been a lie?

6
7

A.

Yes, sir.

8

Q.

Did you tell Amanda Baer that she had to say accusations
against Mr. Jomiah Washington because if she didn't -- if

9
10

she did say that these things occurred, but then said,

11

later said they weren't true, that then she would just

12

have to go to jail for 25 years?

13

A.

that question.

14
15

.

I know you're reading the writing, but I can't understand

Q.

All right.

Well, did you tell her -- did you say certain

16

things at this Investigative Subpoena Hearing, and then

17

later come to a later court hearing saying, oh, that's

18

not true, I just made that up, that she would go to

19

prison for 25 years?

20

A.

No.

21

Q.

Did you tell her that?

22

A.

No, sir.

23

Q.

So, if she testified that way at the Preliminary
Examination under oath that would be a lie?

24
25

A.

Yes, sir.

*4

152

1

Q.

Did you tell Amanda Baer that if she said that Jomiah

2

Washington said he's going to set the car on -- the car

3

on fire with the body in it -- did you tell her to say

4

that?

5

A.

No, sir.

6

Q.

If Amanda Baer testified at the Preliminary Examination

7

that, in fact, she said Detective Bowser told me to say

8

that, would that be a lie?

9

A.

Yes, sir.

10

Q-

So, I've gone over probably conservatively about 10 or 12

11

different things that Amanda Baer has testified to at the

12

Exam that she claims that you told her, that you say are

13

absolute lies, is that correct?

14

A.

They are lies, yes.

15

Q-

And we also -- you were here earlier when you heard Brian

16

Surma say that Amanda Baer claimed that certain things

17

were said by him that he said were lies too, is that

18

right?

19

A.

Yes, sir.

20

Q.

Is it fair to say that Amanda Baer is a complete liar in

21

relation to important matters in this case?

22

MS. WEINGARDEN:

23

THE COURT:

24
25

Objection.

Yeah, because nobody knows what

complete is.
MR. CRIPPS:

Right.

153

THE COURT:

1
2

rephrase.

3

BY MR. CRIPPS:

4

Q-

So, you're going to have to

Is it fair to say that Amanda Baer is a liar in relation
to those accusations made?

5
6

A.

To the accusations against me and --

7

Q.

Mr. Surma.

8

A.

Mr. Surma.

9

Q.

The lies that Amanda Baer told were lies when she was

Absolutely.

10

under oath, is that correct, at the Preliminary

11

Examination?

12

A.

In regards to myself and Mr. Surma?

13

Q.

Yeah.

14

A.

Yes.

15

Q.

So, those were lies that she told when she

after she

16

raised her hand to tell the truth, the whole truth, so

17

help me God, is that correct?

18

A.

Yes, sir.

19

MR. CRIPPS:

20

THE COURT:

21

Redirect.

REDIRECT EXAMINATION

22

BY MS. WEINGARDEN:

23

Q-

24
25

No further questions.

What led you to look behind the garage of that Abington
address?

A.

Are you referring to the search warrant?

154

APPENDIX ♦ If
Excerpted Trial
Testimony Of Detective
Brian Bowser
April 12, 201 3,
Pages 150-154

1

your response being --on the response crew, being sent

2

to a scene.

3

cases, or your squad members current cases.

4

Q.

5

Your current cases, your partner's current

Do you recall getting another case to investigate during
the time you were investigating this case?

6

A.

I did.

7

Q.

And I don't know if it's legal for you to tell the jury

8

what the case

9

THE COURT:

Excuse me.

10

What do you mean you don't know if it's legal?

11

Wow, what are you getting ready to do?

12

Maybe you had better approach.

13

{Discussion off the record)

14

BY MS. WEINGARDEN:

15

Q-

16

Did you receive any tips after your Investigative
Subpoena Hearing?

17

A.

Yes.

18

Q.

And did you act on those tips?

19

A.

I did.

20

Q.

Did you direct a unit of the Police Department to go to

21-

an address in an attempt to arrest Jomiah Washington?

22

A.

I did.

23

Q.

What date was that?

24

A.

June 29th, 2011.

25

Q.

And were you told whether or not he was arrested?

98

1

A.

He was..

2

Q-

Where did you tell your crew to go and arrest him?

3

A.

17530 Rutherford Street in the city of Detroit.

4

Q-

As part of your investigation in this case did you come

5

up with the name of Jacob, a young man who lived in

6

Bloomfield Hills?

7

A.

I did.

8

Q.

Did you send any officers to his house?

9

A.

I did.

10

Q-

And why did you do that?

11

A.

During the interview certain information was obtained

12

from Miss Baer.

And I directed Sergeant McGinnis to go

13

to the address, Jacob Uppergrow's {phonetic} residence in

14

West Bloomfield and search for that evidence.

15

Q.

Were you there at the time that was done?

16

A.

I was not.

17

Q-

Did you do any other search warrants in relation to this

18
19

case?
A.

I think a search warrant for the red Geo in question.

I

20

obtained a search warrant for the silver Alero.

21

obtained a search warrant for both cell phones that was

22

recovered from Mr. Washington at the time of arrest.

23

obtained a search warrant for Mr. Washington's buccal

24

swab.

25

Q.

All right.

I

Let me direct your attention to the two

99

I

phones that were taken from Mr. Washington's person.

1

,■

2

A.

Yes, ma'am.

3

Q.

What did you do with the phones?

4

A.

They were placed on evidence by the arresting crew.

I

5

obtained a search warrant, search warrant for each cell

6

phone.

7

Gardner of the Detroit Homicide Section.

And that was downloaded by Sergeant Kenneth

8

Q.

And what were you looking for on those phones?

9

A.

Basically the phone numbers that were used to contact

10
11

information, any text messages that could be used.
Q.

12

And was that information forwarded to Sergeant McGinnis
who you said is your forensic phone expert?

13

A.

The contact information was, yes.

14

Q-

Now, yesterday you saw some photographs that we put up on

15

the machine of a white woman going through the drive

16

through in McDonald's, is that fair?

17

A.

Yes, ma'am.

18

Q.

Did you recognize that woman?

19

A.

Yes.

20

Q-

Who is she?

21

A.

Amanda,. Baer.

22

Q.

Did you ever go to Mr. Bracey's address?

23

who had the surveillance camera.

24

A.

Yes.

25

Q.

And did you do that fairly recently?

100

He's the man

1

A.

Yes.

2

Q.

For what purpose?

3

A.

Just to take some daylight photos of the current scene in
order to show Mr. Bracey.

4
5

Q.

Now, was there a vacant house next door to Mr. Bracey's
home when you arrived there?

6
7

A.

For the photos recently?

8

Q-

Yes.

9

A.

There was not.

10

Q.

Okay.

It had been torn down.

So, let's go back.

The day you were at the scene

11

when the initial discovery happened.

12

whether there was a home next to Mr. Bracey's home?

13

A.

Did you notice

On June 2nd, 2011 there was a vacant house that was one

14

lot west of Mr. Bracey's house.

15

out.

And it had been burned

16

Q-

Did you ever know that, that home was removed?

17

A.

It was.

18

Q.

How did you determine that?

19

A.

I went out there and it was no longer there.

20

Q.

When did you go out there in determining that it was no

21
22

longer there?
A.

23
24
25

I went out there for -- it might have been November of
'12, maybe December of '12.

Q.

Now, did you determine whether the video whether the
video camera's view was -- could have been interrupted by

101

1

that now home that is now not there?

2

THE COURT:

3

MS. WEINGARDEN:

4

What does that mean?
I didn't say that very well,

your Honor.

5

Let me try again.

6

BY MS. WEINGARDEN:

7

Q-

8

Did you look at the video cameras on the man's house, the
surveillance cameras?

9

A.

Yes.

10

Q-

And did you see in which direction they were pointing?

ll

A.

The two cameras that we were concerned with, that I was

12

concerned with, is the camera at the rear of the location

13

of Mr. Bracey's house, that faced westbound across his

14

back yard and across the back yard of the house that was

15

burned down and onto Iliad.

16

Q-

Okay.

17

A.

And the second camera is on the drive -- Mr. Bracey's

18

driveway, which it is mounted to the rear of the house

19

and it faces directly down his driveway onto -- and it

20

shows Sunnyside.

. 21

Q.

22

And that is facing south.

- Do you have any information about why or who removed that
house?

23

A.

I'm assuming it's the City of Detroit.

24

Q-

Okay.

25

A.

No, ma'am.

Does it have anything to do with this case?

102

1

MS. WEINGARDEN:

Judge, I would like to play

2

Exhibit Number 75 for the jury, and then have the right

3

to recall the officer.

4
5

THE COURT:
into the jury room.

6

(Jury excused at 11:52 A.M.)

7

THE COURT:

8

Mr. Cripps.

9

MR. CRIPPS:

10
11

We'll rise and have the jurors step

You may be seated.

Yes, your Honor.

I would object again to the admission of
Proposed Exhibit 75.

12

This again is a interview, tape recorded

13

interview with Miss Baer, that number one, was not under

14

oath.

15

taken the Fifth Amendment, as we all know, in this trial.

16

And not subject to cross examination,

17

the time of the Investigative Subpoena and the

18

Preliminary Examination.

19

Number two, was in relation to a witness who has

It was prior to

It is a violation, we believe, of the right of

20

confrontation under the decision of Crawford versus

21

Washington, US Supreme Court case.

22

to the defense until yesterday, as the Court knows.

It was not provided

23

The most important concern I have is the fact

24

that it, as I argued yesterday, it's an unsworn to, not

25

under oath witness statement basically that I didn't have

103

1

a right to confront the witness about, Miss Baer, either

2

at this trial or at the Preliminary Examination.
The reason I didn't have use of it at this

3

The reason I didn't

4

trial is because she took the Fifth.

5

have use of it at the Exam because it wasn't provided to

6

me.

7

And so for those reasons, your Honor, we

8

believe it's a clear violation of the right of

9

confrontation and ask that it not be allowed as an

10

exhibit in this trial.

11

evidence -- not by the prosecution, and prepared for

12

litigation,

13

THE COURT:

14

MR. CRIPPS:

15

THE COURT:

It's being used as substantive

Are you finished?
Yes.
Now,

I heard all that yesterday.

16

Same arguments, nothing different, no case law that I was

17

expected to get.

18

purposes.

19

inconsistent with the testimony during trial can be used

20

against you, can be put in as impeachment.

21

-to testify, claiming to take the Fifth, after reading all

22

that Preliminary Examination transcript stuff, I know she

23

tried to do that in the last trial, so I didn't know why

24

anybody was so surprised.

25

Therefore they had the right to put in her Examination

It's being used for impeachment

And anything you say to anybody else that's

She refused

But that made her unavailable.

104

1

testimony.

2

everything.

3

officer did some really, really awful things.

4

sit here and watch that tape last night.

5
6
7

And during that she backs away from
And then -- and she also says that this

It impeaches her prior testimony.

I made us

And

therefore it will be admitted into evidence.
Now, I know it's a long tape,

So, what we're

8

going to do is start it and then we'll take our luncheon

9

recess and then we'll continue.

10

We'll rise for our jurors.

11

MS. WEINGARDEN:

12

The People are asking, your Honor, to admit it

13

Judge, could I say one thing?

as substantive evidence under MRE 801

14

THE COURT:

15

80 what?

16

MS. WEINGARDEN:

801 (d) .

17

MS. WEINGARDEN:

Well, the reason that

18

THE COURT:

19

801 (d) what?

20

801 (d), are you talking about (1)?

21

MS. WEINGARDEN:

22

May I have a moment?

23

THE COURT:

24
25

Please be seated.

Excuse me.

Not yet, your Honor.

Because I don't think that applies

to this case.
MS. WEINGARDEN:

I think it's 801 {d)

105

(1)

(B) .

Can you read it?

1

THE COURT:

2

MS. WEINGARDEN:

3

THE COURT:

4

"Prior Statement of Witness".

5

And (d) says:

6

Yes.

Listen, it says

"Statements Which Are Not

Hearsay".
"A statement is not hearsay if: Prior Statement

7
8

of Witness.

The declarant testifies at the trial or

9

hearing and is subject to cross examination concerning

10

the statement, and the statement is (A)

11

the declarant's testimony, and was given under oath

12

subject to the penalty of perjury at a trial, hearing, or

13

other proceeding, or in a deposition, or {B) consistent

14

with the declarant's testimony and is offered to rebut an

15

express or implied charge against the declarant of recent

16

fabrication or improper influence or motive, or (C) one

17

of identification of a person made after perceiving the

18

person."

19

. So, we know it's not

inconsistent with

(C).

20

MS. WEINGARDEN:

21

THE COURT:

22

Because it was once again what I said before,

Judge, I withdraw my --

I thought so.

23

can't be used as substantive evidence because Mr. Cripps

24

or any other attorney was there to cross examine her at

25

this interview.

So, it can't, cannot be used as

106

1

substantive evidence.

2

We'll rise for our jurors.

3

MR. CRIPPS:

4

Your Honor, can I say one more

thing?

5

THE COURT:

6

COURT OFFICER:

7

No.
Take your seats, please.

(Jury returned at 11:59 A.M. )

8

THE COURT:

9

The People ready to proceed?

You may be seated.

10

MS. WEINGARDEN:

11

THE COURT:

12

MS. WEINGARDEN:

13

THE COURT:

Yes, your Honor.

You may.
We're having the video played.

I think you might have wanted to

14

put the witness on the stand and ask him if he -- you

15

know, once it starts, and then you can just have it

16

played.

17

MS. WEINGARDEN:

18

THE COURT:

19
20
21

Okay.

That's Exhibit Number 75, we've

admitted it into evidence.
(PX 75 received in evidence)
THE COURT:

And not only that, if he's not

22

seated in that chair the jurors might be able to see a

23

bit more clearly.

24
25

(Witness Brian Bowser resumed stand)
MS. WEINGARDEN:

Judge, as you can see we're

107

1

having technical difficulties.

2

THE COURT:

3

MS. WEINGARDEN:

4

Could I call another assistant to help us?

5

THE COURT:

6

Again?
Yes.

Do whatever you can to help us

along.

7

Can you do it?

8

All right.

9

No, that's the wrong view.

10

Stop.

11

Wrong view.

12

Stop it.

13

Could you go over it.

14

Did you call to get the other person down here

15

so that we can move on?

16

MS. WEINGARDEN:

17

THE COURT:

18
19
20
21
22
23
24
25

Yes.

Okay.

(Whereupon Exhibit 75 Began Playing at 12:04 P.M.)
THE COURT:

Counsel,,
this is a good time to
/

stop running the tape.
(Whereupon Exhibit 75 Paused at 12:30 P.M.)
THE COURT:

We're going to pause that tape and

take our luncheon recess.
I'm going to caution the jurors you may not
discuss this matter among yourselves nor with anyone

108

1

else.

2

We're going to ask you to go and have a nice

3

lunch to be back here at 1:30 at which time we'll hear

4

the continuation of this tape

5

We'll rise for you to leave and go to lunch.

6

Everyone rise.

7

Jurors are free to go to lunch to be back at

8
9

1:30.
(Jury excused for lunch at 12:30 P.M.)

10

THE COURT:

11

I'm going to ask our spectators to remain in

Please be seated.

12

the courtroom for a few minutes to give the jurors time

13

to get up the steps.

14

WITNESS BRIAN BOWSER:

15

THE COURT:

May I step down, ma'am?

Yes, you may.

16

(Witness Brian Bowser stepped down from witness

17

stand)

18

THE COURT:

19

Okay, we're in recess until 1:30.

20

MR. CRIPPS:

21

Thank you.

22
23
■24
25

Okay, spectators may now leave.

Yes, your Honor.

(Court in recess at 12:30 P.M.)
AFTERNOON SESSION
(Court in session at 1:31 P.M.)
(Jury returned at 1:31 P.M.)

109

(Witness Brian Bowser resumed witness stand)

1
2

THE COURT:

3

May I have a stipulation that all of our jurors

4

You may be seated.

are here and in their proper places?

5

MS. WEINGARDEN:

6

MR. CRIPPS:

7

THE COURT:

8

You may proceed with the playing of the tape,

9

Yes, your Honor.

Yes, your Honor.
All right.

video.

10

(Whereupon Exhibit 75 Resumed Playing at 1:31 P.M.)

11

{Whereupon Exhibit 75 Stopped at 2:22 P.M.)

12

THE COURT:

13

MS. WEINGARDEN:

14

Yes, it is.

15

THE COURT:

16

Please turn it off.

17

This a very good time I think for the jury to

18

Is that the end of the video?
I believe so.

All right.

take a 10 minute coffee break.

19

So, I'm going to caution the jurors not to

20

discuss this matter among yourselves nor with anyone

21

else.

22

If you would like to go out, well, you can do

23

that or you can remain in the jury room.

24

in the jury.room you'll have to stay there until we tell

25

you come back in.

But if you go

If you go out the door we want you to

110

